<html>
<title> - DEPARTMENT OF DEFENSE ENERGY POSTURE</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]





                         [H.A.S.C. No. 110-134]

                  DEPARTMENT OF DEFENSE ENERGY POSTURE

                               __________

                                HEARING

                               BEFORE THE

                         READINESS SUBCOMMITTEE

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                             MARCH 13, 2008



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





                  U.S. GOVERNMENT PRINTING OFFICE
45-066                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001





                         READINESS SUBCOMMITTEE

                   SOLOMON P. ORTIZ, Texas, Chairman
GENE TAYLOR, Mississippi             J. RANDY FORBES, Virginia
SILVESTRE REYES, Texas               WALTER B. JONES, North Carolina
LORETTA SANCHEZ, California          MIKE ROGERS, Alabama
ROBERT A. BRADY, Pennsylvania        JOHN M. McHUGH, New York
JIM MARSHALL, Georgia                HOWARD P. ``BUCK'' McKEON, 
MADELEINE Z. BORDALLO, Guam              California
MARK E. UDALL, Colorado              ROBIN HAYES, North Carolina
DAN BOREN, Oklahoma                  FRANK A. LoBIONDO, New Jersey
NANCY BOYDA, Kansas                  TOM COLE, Oklahoma
CAROL SHEA-PORTER, New Hampshire     ROB BISHOP, Utah
JOE COURTNEY, Connecticut            TRENT FRANKS, Arizona
DAVID LOEBSACK, Iowa                 CATHY McMORRIS RODGERS, Washington
GABRIELLE GIFFORDS, Arizona          DOUG LAMBORN, Colorado
ELIJAH E. CUMMINGS, Maryland         ROB WITTMAN, Virginia
                Eryn Robinson, Professional Staff Member
                Lynn Williams, Professional Staff Member
                     Megan Putnam, Staff Assistant






                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2008

                                                                   Page

Hearing:

Thursday, March 13, 2008, Department of Defense Energy Posture...     1

Appendix:

Thursday, March 13, 2008.........................................    31
                              ----------                              

                        THURSDAY, MARCH 13, 2008
                  DEPARTMENT OF DEFENSE ENERGY POSTURE
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Bartlett, Hon. Roscoe G., a Representative from Maryland, 
  Committee on Armed Services....................................     4
Forbes, Hon. J. Randy, a Representative from Virginia, Ranking 
  Member, Readiness Subcommittee.................................     2
Ortiz, Hon. Solomon P., a Representative from Texas, Chairman, 
  Readiness Subcommittee.........................................     1

                               WITNESSES

Arny, Wayne, Deputy Under Secretary of Defense, Installations and 
  Environment, Department of Defense.............................     5
Carns, Gen. Michael P.C., USAF (Ret.), Chairman, Defense Science 
  Board Task Force on Energy Strategy............................     8
DiPetto, Chris, Deputy Director, Systems and Software Engineering 
  (Developmental Test & Evaluation), Office of the Under 
  Secretary of Defense (Acquisition and Technology)..............     7
Solis, William M., Director, Defense Capabilities and Management, 
  U.S. Government Accountability Office..........................    11

                                APPENDIX

Prepared Statements:

    Arny, Wayne..................................................    48
    Carns, Gen. Michael P.C......................................    72
    DiPetto, Chris...............................................    58
    Forbes, Hon. J. Randy........................................    43
    Ortiz, Hon. Solomon P........................................    35
    Solis, William M.............................................    81

Documents Submitted for the Record:

    [There were no Documents submitted for the record.]

Witness Responses to Questions Asked During the Hearing:

    Mr. Forbes...................................................   103
    Mr. Ortiz....................................................   103
    Mr. Taylor...................................................   104

Questions Submitted by Members Post Hearing:

    Mr. Bartlett.................................................   111
    Mr. Ortiz....................................................   109
 
                  DEPARTMENT OF DEFENSE ENERGY POSTURE

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                                    Readiness Subcommittee,
                          Washington, DC, Thursday, March 13, 2008.
    The subcommittee met, pursuant to call, at 10:34 a.m., in 
room 2118, Rayburn House Office Building, Hon. Solomon Ortiz 
(chairman of the subcommittee) presiding.

 OPENING STATEMENT OF HON. SOLOMON P. ORTIZ, A REPRESENTATIVE 
          FROM TEXAS, CHAIRMAN, READINESS SUBCOMMITTEE

    Mr. Ortiz. I understand that we might be having a vote in 
about 25 minutes, but we will see if we can move forward, but 
thank you so much for being with us today. I want to thank our 
distinguished witnesses. We will have a few minutes, but maybe 
I can get through with my opening statement.
    I thank our distinguished witnesses for appearing before 
this subcommittee today to discuss energy use and management at 
military installations and for military operations.
    Energy issues cut across all Department of Defense (DOD) 
organizations and functions. Managing the demand for energy is 
vital not only at facilities but also for fleet vehicles, 
surface ships and submarines, aircraft, and tactical vehicles. 
The Department is developing innovative energy sources for 
soldier power and for forward-deployed locations, while also 
striving to find sources of renewable energy and meet goals for 
energy efficiency on installations at home.
    Management is vital because the Department of Defense 
spends billions of dollars every year on energy. The 
Department's request for 2009 includes $3 billion more for 
energy than last fiscal year. This week, the price of oil 
topped $109 per barrel and is four times more expensive than it 
was in 2001. Increased fuel prices strain the military 
services' readiness accounts. For example, in fiscal year 2009, 
roughly half of the increase in the Navy's operations and 
maintenance budget request is due to projected increases in 
fuel costs.
    For the past several years, the Defense Energy Supply 
Center raised bulk fuel rates mid-year, charging the services 
more than they budgeted for fuel. In many ways, the Department 
has already assumed a leadership role in addressing energy 
demand challenges. For example, even before the National 
Defense Authorization Act for fiscal year 2007 required it, the 
Department of Defense already had established an internal goal 
of using 25 percent renewable electricity by 2025.
    The services are also implementing innovative energy 
projects. For example, at Nellis Air Force Base, the Air Force 
has partnered with private industry to build the largest solar 
panel array in the Americas. This was accomplished through an 
enhanced use lease which allows the installation to lease non-
excess land to private entities for 50 years or more. Other 
plans for the use of enhanced use leases raise questions, 
however.
    The Air Force is proposing enhanced use lease agreements 
for a coal-to-liquid production facility at Malmstrom Air Force 
Base and for nuclear power plants on other Air Force 
installations. I am concerned that use of such long-term 
commitments may impede a base's primary mission and could 
result in another form of encroachment. I will be very 
interested to hear whether the Department thinks these 
proposals serve the overall good for installations.
    I also hope to address the criteria we use to evaluate 
choices that affect energy use. For example, what lessons are 
being learned from the pilot study using the fully burdened 
cost of fuel for mobility systems? Of course, we also are 
anxious to learn about recommendations by the Defense Science 
Board (DSB) and Government Accountability Office (GAO), as well 
as specific energy solutions and challenges from the 
Department's perspective.
    I look forward to thoughtful testimony from the 
distinguished witnesses we have invited here today on these and 
other issues of interest to my colleagues on the subcommittee.
    The chair now recognizes my good friend, the distinguished 
gentleman from Virginia, Mr. Forbes, for any remarks he would 
like to make.
    [The prepared statement of Mr. Ortiz can be found in the 
Appendix on page 35.]

   STATEMENT OF HON. J. RANDY FORBES, A REPRESENTATIVE FROM 
        VIRGINIA, RANKING MEMBER, READINESS SUBCOMMITTEE

    Mr. Forbes. Mr. Chairman, I first want to applaud your 
leadership and foresight in addressing not only the issues that 
are impacting military readiness today, but also issues that a 
long-term threats to the readiness of the Department of 
Defense.
    Today's hearing on DOD's energy posture and the hearing we 
had this past Tuesday on inherently governmental functions 
addressed issues that are complex and very often ill-defined. 
They require a long-range strategy and commitment if we are to 
have an impact, yet they truly are issues that define and 
underpin the readiness posture of the Department.
    Mr. Chairman, I want to thank you for your vision and thank 
you for holding this hearing. I would also like to thank you 
for assembling this absolutely terrific panel of witnesses. 
Gentlemen, we thank you for taking time today to talk with us 
and allow us to pick your brains and get some vision and 
direction on this very important issue. We certainly appreciate 
your expertise on this matter and we value your time.
    Today, we have an opportunity to look at a wide variety of 
issues related to the energy requirements and the energy 
posture of the Department of Defense. The recently released 
Defense Science Board study on DOD's energy strategy provides a 
solid backdrop for our conversation. The findings and 
recommendations in this report are important and timely.
    As the chairman mentioned, with the rising price of crude 
oil, one might even argue that they are overdue. We are honored 
to have one of the study's co-chairmen with us today, General 
Michael Carns. General, we thank you for your work on this 
matter, and all the members of the task force for the work you 
have done in examining the Department's energy challenges.
    One of the goals of the hearing today is to discuss the two 
serious energy risk areas that are identified in your report: 
energy risk to our operational forces and the risk of extended 
loss of power at fixed installations. As you proceed with your 
testimony, I would ask each of you to also address what you 
believe needs to be done so that we can actually see real 
benefit from the study.
    I say that because we study and report on things all the 
time, yet it is very difficult for us as a Congress to bring 
about real change sometimes. Mr. Solis, you probably understand 
this point better than any of us, and I know the committee has 
kept you very busy, and we just certainly appreciate all of 
your efforts and your energy and all that you do to support 
Congress.
    I make this point because we cannot afford to have what I 
believe are very salient and very plausible recommendations to 
be put on a shelf and forgotten. I would like to know what 
needs to be done to bring your commendations to fruition so 
that we can take steps necessary to further strengthen DOD's 
energy posture and therefore strengthen our national defense. I 
am very interested in understanding how the DSB study will 
inform the strategic plans of the Department and how such 
strategic plan will be developed and implemented.
    I would also like to ask that you let us know if there are 
legislative changes that are needed to improve DOD's energy 
posture. Oftentimes, energy legislation such as the Energy 
Independence and Security Act of 2007 is written with a broad 
focus across the government. While I agree that the U.S. 
Government's energy policy should be just that--government-
wide--the Department of Defense has unique mission sets, a 
unique structure, and unique operating requirements. We must 
take care to ensure that legislation that has all the best 
intentions does not have unintended consequences that unduly 
degrade military capability.
    Once again, thank you for joining us today. I look forward 
to your testimony and to gaining a better understanding of what 
we need to do to ensure military readiness through a strong 
energy posture.
    Mr. Chairman, thank you and I yield back the balance of my 
time.
    [The prepared statement of Mr. Forbes can be found in the 
Appendix on page 43.]
    Mr. Ortiz. I checked with the minority, and request 
unanimous consent to allow my good friend, Mr. Bartlett, to 
also have an opening statement.

  STATEMENT OF HON. ROSCOE G. BARTLETT, A REPRESENTATIVE FROM 
             MARYLAND, COMMITTEE ON ARMED SERVICES

    Mr. Bartlett. Thank you very much, Chairman Ortiz, for 
allowing me to sit in on this subcommittee hearing. I welcome 
this hearing for bringing attention to the new Defense Science 
Board report on Department of Defense Energy Strategy: ``More 
Fight--Less Fuel.''
    I believe that energy is the most important challenge 
facing the world and our country in the 21st century. 
Specifically, I am most concerned about the imminent prospect 
of global peak oil. Global peak oil is inevitable because each 
oil well peaks and then declines in production after it has 
produced about half of its reserves. Similarly, regions and 
countries peak. U.S. oil production peaked in 1970.
    My colleagues on the Energy and Environment Subcommittee of 
the Science Committee and I received testimony from Dr. Bob 
Hirsch in a field hearing held in Houston on February 29. Dr. 
Hirsch said ``The Royal Swedish Academy tells us that 54 of the 
65 most important oil producing countries are already past 
their peak production.''
    A 2007 GAO report that I commissioned warned that the U.S. 
is particularly at risk for negative consequences from peak 
oil. That is because we are the world's biggest user of oil, 
consuming 25 percent, while producing only 8 percent of world 
production from just 2 percent of world reserves. Recently, 
chief executives from the Hess, ConocoPhillips, and Shell oil 
companies all expressed doubts about the ability for world oil 
supplies to meet demand by 2015, a very short time for DOD 
planning horizons.
    Oil is over $100 a barrel and Goldman Sachs is among those 
estimating it could go to $150 or $200 a barrel this year. We 
are acutely aware as members of the Armed Services Committee 
that the Defense Department is the largest consumer of oil in 
the country. We know that mobility platforms consume the most 
energy used by the Department, with jet fuel representing 
nearly 60 percent of fuel consumed by DOD.
    I am really proud of the Defense Department for its 
national leadership role in energy efficiency, advanced energy 
technologies, and utilizing renewable energy. The military 
trains like it fights. The military needs to plan like it 
fights. A 2001 Defense Science Board report recommended that it 
is imperative to reduce vulnerability and increase warfighting 
capabilities by achieving greater energy efficiency and less 
energy intensity of operational forces and weapons platforms.
    It is common sense that if you don't measure it, you can't 
manage it. That, in essence, was the hub of the challenge 
concerning energy from the Defense Department when the 2001 
Defense Science Board report was issued. Some may perceive that 
this new DSB report represents deja vu. However, it is not. 
There have been at least two key steps that were already 
underway prior to the release of this new DSB report.
    In August of 2006, the Vice Chairman of the Joint Chiefs of 
Staff issued a memorandum endorsing a Joint Requirements 
Oversight Council decision to establish an energy efficiency 
key performance parameter (KPP). This KPP was subsequently 
required by the chairman of the Joint Chiefs of Staff's 
instruction, CSI-3170(f) dated May 2007. In April of 2007, an 
under secretary of defense acquisition, logistics, and 
technology (AT&L) memorandum established that it is Department 
policy to use the fully-burdened cost of fuel for all 
acquisition trade analyses.
    I am looking forward to today's witnesses addressing the 
Defense Science Board's first recommendation for the Department 
to accelerate efforts to implement energy efficiency key 
performance parameters and to use a fully-burdened cost of fuel 
to inform all acquisition trades and analyses about their 
energy consequences. Seventy percent of the tonnage delivered 
to deployed forces is fuel. Fuel delivery convoys to deployed 
forces add costs to the logistical chain and create targets for 
improvised explosive devices (IEDs), the single greatest source 
of casualties in Iraq.
    Additional personnel protection measures to reduce 
casualties from IEDs, such as air cover or air transport 
substitutions for ground convoys increases costs further. I 
look forward to learning from our witnesses your perspective 
about energy management by the Defense Department.
    Thank you very much, Mr. Chairman.
    Mr. Ortiz. Today, we have a panel of distinguished 
witnesses representing the Department of Defense, the Defense 
Science Board, and the Government Accountability Office. We 
have with us Mr. Wayne Arny, Deputy Under Secretary of Defense 
for Installations and Environment. Wayne, welcome.
    We have Mr. Chris DiPetto, Deputy Director of Systems and 
Software Engineering in the Office of the Under Secretary of 
Defense for Acquisition and Technology. Welcome, sir.
    And we have General Michael P.C. Carns, United States Air 
Force, retired, Chairman of the Defense Science Board Task 
Force on Energy Strategy. General, thank you, sir.
    And we have Mr. William Solis, a good friend. Good to see 
you again, sir. He is Director of Defense Capabilities and 
Management, United States Government Accountability Office.
    Without objection, the witnesses' prepared statements will 
be accepted for the record.
    Mr. Arny, welcome. You can proceed with your opening 
statement, sir.

  STATEMENT OF WAYNE ARNY, DEPUTY UNDER SECRETARY OF DEFENSE, 
      INSTALLATIONS AND ENVIRONMENT, DEPARTMENT OF DEFENSE

    Mr. Arny. Thank you, sir.
    Chairman Ortiz, Congressman Forbes, distinguished members 
of the subcommittee, I appreciate this opportunity to appear 
before you to discuss the Department's installation energy 
efficiency and conservation posture. As we mentioned before, 
installations are a critical component of our defense 
capabilities and directly affect our training, readiness, and 
quality of life.
    Besides maintaining that quality of our facilities, we 
believe it is imperative for the Department to exercise good 
stewardship of the natural resources, not only because of the 
environmental impact, but also because there is a sound 
business case for maximizing the expenditures of our resources.
    There are two speakers here today representing DOD. I will 
be speaking in the installation aspects of energy and non-
tactical vehicles, and Mr. Chris DiPetto from Director, Defense 
Research and Engineering (DDR&E), will focus on mobility. After 
our presentations, I hope you will have a better understanding 
of our different roles.
    As the deputy for installations and environment, I have 
responsibility for the Department's installation and non-
tactical vehicle energy consumptions. This represents almost 28 
percent of the total energy consumed by the Department, and of 
that, only 1.5 percent is for non-tactical.
    I am happy to report that for fiscal year 2007, facilities 
energy utilization decreased by 10.1 percent on a British 
Thermal Unit (BTU)-per-square-foot basis from the 2003 
baseline, with a cost savings of $80 million, despite the 
rising cost of energy. Our installation energy effort is guided 
by the Energy Policy Act of 2005 and the Executive Order 13423. 
These policies direct the agencies to take action in a wide 
variety of functional management areas.
    Further, the recently passed Energy Independence and 
Security Act of 2007 also contains a number of new 
requirements, as you mentioned, and we are examining them for 
implementation. We will get back to you on the questions you 
asked on that.
    In January 2006, the Department also joined 16 other 
federal agencies in signing a memorandum of understanding (MOU) 
for federal leadership in high-performance and sustainable 
buildings. We are pursuing the attainment of Leadership in 
Energy and Environmental Design (LEED) silver-gold for 70 
percent of the fiscal year 2009 military construction projects. 
In addition, we are working to address the sustainability of 
existing facilities.
    Aside from construction of new facilities, we continue to 
invest in initiatives to approve efficiency in existing 
structures through the use of the energy savings performance 
contract that you also renewed a couple of years ago, and 
utility energy service contracts. These enable us to bring in 
more cost-effective long-term facility operations and 
maintenance with no up-front costs. The work, and typically 
account for more than half of all of our facility energy 
savings. They are paid for through energy savings. By 2005, we 
had reduced facility energy use by 28.3 percent from the 1985 
baseline.
    We have also increased our focus on purchasing renewable 
energy and developing renewable resources on our installations. 
As you recall, we have special legislation that allows us to do 
that. We have also increased the use of energy conservation 
investment program funding for renewable projects from $5 
million in fiscal year 2003 to $28.2 million planned for fiscal 
year 2008. We intend to increase funding for these projects to 
$10 million per year up to $120 million in fiscal year 2013.
    In geothermal, for which I said we had legislation, we are 
making tremendous progress. We are also working with the Office 
of Management and Budget (OMB) to expand this legislation so 
that we can exploit other forms of traditional and renewable 
energy on our facilities. For the geothermal as of now, we have 
a 270 megawatt power plant at China Lake that supplies enough 
energy to serve 180,000 homes annually, and the base gets a 
reduction in its own energy bill.
    We have a second power plant under construction in Fallon 
and three additional plants in the southwest are planned at El 
Centro, 29 Palms, at Chocolate Mountains, and at the Army ammo 
depot at--I draw a blank right now. The Navy is also working 
with the Army to do geothermal exploration there.
    We also have multiple solar facilities online, and 
initiatives at several locations, including California, Texas, 
and Arizona. The Air Force recently brought on North America's 
largest solar array at Nellis. That produces 14 megawatts and 
provides one-third of the base's electric requirement. That, 
again, was done with no money up front on the part of the Air 
Force and will provide significantly lower electric rates over 
time.
    We are also pushing into ocean and tidal wave technology, 
and we are working to set up small wind farms with diesel 
backups wherever they make sense, especially at remote 
locations. We have these at San Clemente, Guantanamo Bay and on 
the islands powering radar off of Point Mugu.
    One that is very interesting, we funded a small business 
innovative research project for an ocean thermal energy 
conversion program. OTEP as it is called is being tested on 
Diego Garcia. The project seeks to use the temperature 
differences between the ocean surface and deeper water to 
produce electricity and potable water to a location where we 
all know both those commodities are very expensive to produce.
    I will briefly mention non-tactical vehicles. The 
Department is required by legislation to use alternative and 
flexible fueled vehicles for at least 75 percent of new 
vehicles in metropolitan service areas, and we meet that goal. 
But unfortunately, we have not seen the development of the 
alternative fuel infrastructure that we need to fuel those 
vehicles. So consequently, while we have the number of 
vehicles, they are still using regular fuel to power because we 
don't have access to the alternative fuels.
    We are investigating ways to help do that, as you have seen 
at our Quarters K gas station up by the Pentagon, open to the 
public, our alternative fuel facilities. We are working with 
other exchanges.
    In closing, I thank you for the opportunity to highlight 
the Department's energy management of our installations and 
non-tactical vehicle fleet, and to talk about our successes and 
our plans for the future. Your support of the Department's 
energy initiatives and investments is greatly appreciated, and 
I look forward to continuing to work with this committee as we 
increase energy security and reduce operating costs for the 
Department.
    Thank you.
    [The prepared statement of Mr. Arny can be found in the 
Appendix on page 48.]
    Mr. Ortiz. Mr. DiPetto, whenever you are ready, sir.

   STATEMENT OF CHRIS DIPETTO, DEPUTY DIRECTOR, SYSTEMS AND 
SOFTWARE ENGINEERING (DEVELOPMENTAL TEST & EVALUATION), OFFICE 
 OF THE UNDER SECRETARY OF DEFENSE (ACQUISITION AND TECHNOLOGY)

    Mr. DiPetto. Thank you.
    Chairman Ortiz, Congressman Forbes, distinguished members 
of the subcommittee, thank you for the opportunity to appear 
here before you today to discuss the Department of Defense's 
current efforts to address our energy risks and our energy 
governance. The past year has been quite active as the 
enterprise has begun to appreciate the challenges and potential 
opportunities related to energy.
    My name is Chris DiPetto and I am here representing the 
Deputy Under Secretary of Defense for Acquisition and 
Technology (A&T), Dr. James Finley. A&T has some specific 
responsibilities related to examining and setting policy on DOD 
mobile systems energy. Specifically, we were directed by the 
deputy secretary to mature and incorporate a concept called 
``the fully burdened cost of fuel'' into DOD business 
processes.
    Incorporating this concept, we believe, will give energy, 
particularly the burdens of battle space-delivered fuel, proper 
consideration as design, develop and acquire capabilities. The 
DOD Energy Security Task Force is chaired by Under Secretary of 
Defense for Acquisition, Technology, and Logistics, the 
Honorable John Young. This task force was chartered in May, 
2006, to delve into the unique energy challenges the Department 
faces and to develop management and technology solutions.
    This group has succeeded in raising the profile of energy 
within the Department and is positioned to provide senior 
leadership with actionable recommendations this year on how to 
manage these energy risks in new and innovative ways. The 
Office of the Director of Defense Research and Engineering 
provides the day-to-day leadership to the Energy Security Task 
Force, so I would defer to them to provide the committee a 
broader description of the work plan and their successes to 
date.
    However, my organization, A&T, acquisition and technology, 
participates actively in this group, along with other Office of 
the Secretary of Defense (OSD), joint staff, service and 
defense agency representatives. I hope to provide you with some 
context on the energy challenges the Department faces. 
Information on the work my leadership and I are doing to better 
understand the Department's energy risks, and to explain some 
of the planning and business process changes the Department is 
considering to better manage these risks.
    I provided my formal testimony for the record. So with 
that, I thank the subcommittee for their attention on this 
cross-cutting issue and I will welcome your questions.
    [The prepared statement of Mr. DiPetto can be found in the 
Appendix on page 43.]
    Mr. Ortiz. Thank you, sir.
    General Carns.

 STATEMENT OF GEN. MICHAEL P.C. CARNS, USAF (RET.), CHAIRMAN, 
      DEFENSE SCIENCE BOARD TASK FORCE ON ENERGY STRATEGY

    General Carns. Thank you, Chairman Ortiz, Ranking Member 
Forbes, and other distinguished members.
    In May, 2006, the Under Secretary of Defense for 
Acquisition, Logistics and Technology commissioned the Defense 
Science Board Task Force on DOD Energy Security. Citing the 
specific energy security risks to both our Nation and to our 
military forces, he challenged the task force to find 
opportunities to reduce DOD's energy demand, to identify 
institutional obstacles to their implementation, and assess 
their potential commercial and security benefits to the Nation.
    The task force was co-chaired by Dr. James Schlesinger and 
myself. It included 77 members. We held 37 meetings, took 143 
briefings, took 10 months to deliberate, and another 10 months 
to finalize our report. We came to an agreement about the most 
important energy tasks facing the Department, and a set of 
recommendations that if followed would allow the Department to 
manage those risks.
    Here is a copy of the report which I submit for the record, 
and I have also provided written testimony for the record.
    [The information referred to is retained in the committee 
files and can be viewed upon request.]
    General Carns. The Department of Defense is the single 
largest consumer of energy in the United States, using less 
than 1 percent of the Nation's total energy consumption and 
about 1.5 percent of its oil consumption. Interestingly enough, 
the number two user is Wal-Mart. Buildings and facilities use 
about one-quarter of DOD's total energy, and mobile systems 
consume about three-quarters. To put this in perspective, the 
Department uses somewhat more petroleum per year than a major 
international airline, not twice as much, but almost as much.
    We found that the Department faces two serious energy 
risks. One is moving fuel to our operational forces, and the 
other is the potential for an extended loss of commercial power 
to certain selected critical missions at our fixed 
installations.
    Now, a few thoughts about the risk to operational forces. 
Moving fuel to the deployed forces is difficult, expensive and 
certainly dangerous. Logistics is a vulnerable soft underbelly 
for us and a rich target for our enemies. The larger our 
logistics tail gets, the more difficult it is to protect, and 
as we have learned in the Iraqi conflict, more combat power 
gets diverted from combat operations to assure the logistics 
safety, the more casualties we take because of our supply 
trucks can never be as survivable as our combat vehicles. As 
Congressman Bartlett noted, both Iraq and Afghanistan have 
taught us that we are no longer moving logistics around in 
secure areas. Everything is at risk all the time.
    The task force identified the best way to reduce energy 
tasks to operational forces is to reduce the fuel demand. The 
best approach to doing so was developed by the Defense Science 
Board 2001, and I point out that Admiral Truly is present with 
us and he chaired that board in 2001. In my view, the first 
thing to do is to educate the leadership, incorporate fuel 
logistics and convoy protection into war games, the scenarios, 
the vignettes and the campaign analyses that DOD uses to 
identify needed capabilities, and to develop options for 
fielding these capabilities. Improved endurance--the amount of 
capability we extract from each unit of energy an operational 
system uses is an important capability.
    Second, we need to put a lot more rigor in the system. As 
was mentioned, this matter of establishing a key performance 
parameter for all new systems that create a demand for fuel. 
The results of the war games and the scenarios and other 
campaign models will provide the basis for formulating those 
KPPs.
    Again, a parenthetical note, several years ago, many of us 
participated in a war game up at Carlyle Barracks. During the 
course of that game, it actually came to a halt. That is, we 
were unable to execute the forces because they could not 
sustain the logistics trail in this particular exercise. At the 
time, the senior people were very critical of the control group 
for allowing the game to stop, saying they would be unable to 
fulfill their expectations of the game. We said: You just 
learned the most important lesson that this game can teach you.
    Back to the text here, my third comment would be to find 
ways to value fuel and incentivize innovation. Establishing the 
fully-burdened cost of fuel to capture costs of moving and 
protecting fuel, and using that value as the financial basis 
for investing in new technologies throughout the stages of 
acquisition and re-set programs is a good start.
    It also should be used for AoAs, or analysis of alternative 
studies, that are used to select among competing alternatives 
for new programs. The result of the war games, the scenarios, 
and other campaign models will also allow a more accurate 
estimate of the fully-burdened cost of fuel. ``Black'' programs 
must not be exempt from these requirements.
    To give you some perspective, by the time a gallon of fuel 
flows out of the boom of an airborne tanker, years ago the 
analysis showed the Air Force had spent at least $42 per 
gallon. I am sure that cost is considerably higher today, given 
the cost of operating systems as well as the basic cost of 
fuel. The task force also looked at current operational 
procedures that waste energy and financial practices that 
incentivize waste, and have made recommendations for 
operational changes and new financial incentives to reduce 
energy waste.
    Now, a few thoughts about risk to critical missions. There 
are critical missions at fixed installations at absolutely 
unacceptable risk of extended outage from loss of commercial 
power. If the committee is interested at a later time, we would 
be delighted to talk about that information which is contained 
in a classified annex. Neither the grid nor on-base backup 
power provides sufficient reliability to ensure continuity of 
critical national priority functions and oversight of strategic 
missions. We base this on a series of briefings and discussions 
we held with the Department of Energy, industry, and Department 
of Defense officials, as well as reports and other literature.
    While DOD has conducted vulnerability analysis and 
assessments of its installations, it has not yet developed an 
overall risk management strategy to manage those 
vulnerabilities. The task force has recommended that the 
Department form a cross-functional team to assess the risk of 
specific missions at specific locations. The task force also 
recommended the Department develop a plan as a management tool 
to achieve the business process changes we recommended by 
establishing measurable goals and clear responsibility, and 
most importantly, accountability.
    We also recommended the Department invest in energy 
technologies to a level commensurate to their value to the 
Department. This includes operational, as well as financial 
value. And finally, we recommended the DOD evaluate its 
operational procedures for energy waste and make appropriate 
changes.
    Mr. Chairman, this concludes my abbreviated remarks. Thank 
you.
    [The prepared statement of General Carns can be found in 
the Appendix on page 72.]
    Mr. Ortiz. Thank you, general,
    Mr. Solis.

 STATEMENT OF WILLIAM M. SOLIS, DIRECTOR, DEFENSE CAPABILITIES 
     AND MANAGEMENT, U.S. GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Solis. Chairman Ortiz, Ranking Member Forbes, members 
of the subcommittee, I appreciate the opportunity to be here 
today to discuss DOD's efforts to manage and reduce its 
mobility energy demand. We refer to mobility energy as energy 
DOD requires to move and sustain its forces and weapons 
platforms for military operations. Your oversight of this issue 
is paramount not only to improving the management of DOD's 
mobility energy, but also helps ensure that we minimize the 
mission risks our military forces are exposed to in operations.
    My testimony will focus on three areas: first, energy 
issues that will affect DOD operations; second, some of the key 
departmental and military service efforts to reduce demand for 
mobility energy; and third, current DOD management approaches 
to guide and oversee these efforts.
    First, many of the energy issues our Nation currently faces 
have direct impact on DOD. Rising fuel costs, worldwide energy 
demands, increased U.S. demand for oil, and uncertainties about 
world oil supplies are just a few examples that underscore the 
importance of energy to the Nation and to DOD. Fuel costs for 
DOD are substantial. In 2007 alone, DOD reported that it 
consumed almost 4.8 billion gallons of mobility fuel and spent 
$9.5 billion.
    Volatility of world oil prices are likely to continue, 
which may require DOD to make difficult tradeoffs such as 
redirecting funds from ongoing programs to pay for needed fuel. 
Furthermore, the Department is directly and negatively affected 
by DOD's high fuel requirements on the battlefield. These 
requirements place, as has been mentioned, a significant 
logistics burden on our military forces. They can limit the 
range and pace of operations and can add to mission risk, 
including exposing supply convoys to attack. Given these 
issues, DOD must be well positioned to effectively manage 
energy demands for military operations.
    Next, I would like to acknowledge some of DOD's key 
mobility energy demand initiatives underway. At the department 
level, DOD created a task force to address energy security 
concerns. We recognize that the task force is a good forum for 
sharing ideas and monitoring progress of selected mobility 
energy projects across the Department. Each of the military 
services has its own ongoing initiatives.
    For example, the Army is addressing fuel consumption at 
four deployed locations by developing foam-insulated tents and 
temporary dome structures that are more efficient to heat and 
cool, thus reducing the need for fuel power generators. The 
Navy has established an energy conservation program to 
encourage ships to reduce energy consumption. The Air Force has 
developed an energy strategy and is undertaking various fuel 
reduction initiatives such as determining fuel-efficient flight 
routes and optimizing air refueling. The Marine Corps has 
initiated research and development efforts to develop 
alternative power sources and improve fuel management.
    Finally, although DOD has taken some positive steps to 
address mobility energy, it lacks key elements of an 
organizational arching framework to guide and oversee these 
efforts. First, DOD's current approach lacks high-level 
leadership necessary to advocate and coordinate mobility energy 
issues across the Department. Without effective leadership, the 
Department has been unable to comprehensively address the 
development of a mobility energy strategic plan and improve 
coordination among DOD stakeholders. DOD's current approach to 
mobility energy is to centralize. Responsibilities are diffused 
among several DOD and military service offices and working 
groups without a single focal point who is accountable for 
mobility energy across the Department.
    As I stated, the establishment of the task force is a 
positive step. However, this task force has been unable to 
develop policy, provide for guidance for oversight, and be the 
advocate for mobility energy Department-wide. For example, it 
does not have a seat at the table in executive-level Department 
discussions such as the Joint Requirements Oversight Council or 
the Defense Acquisition Board. Moreover, the individuals that 
lead the task force do so as an extra responsibility outside 
their normal work duties.
    It is also relevant to point out that DOD has established a 
focal point for facility energy, which accounts for about one-
quarter of DOD's total energy consumption. Mobility energy 
accounts, as has been mentioned, accounts for about three-
quarters of the total energy consumption, yet there is no 
equivalent focal point to lead, advocate, and coordinate for 
these issues.
    Second, there is not a strategic plan for dealing with 
mobility issues. Key elements of this plan would include DOD-
wide goals, priorities, resource requirements, timeframes for 
implementation, and performance metrics to evaluate progress. 
While we are not recommending specific goals for the 
Department, we note that back in 2002, the Commandant of the 
Marine Corps established the goal to reduce fossil fuel 
consumption by 10 percent in the year 2010.
    In closing, we issued a report today that recommends that 
DOD establish an over-arching organizational framework for 
mobility energy. To establish such a framework, DOD should 
designate an executive-level official who is accountable for 
mobility energy matters, develop a comprehensive Department-
side strategic plan, and improve business processes to 
incorporate energy efficiency considerations.
    In addition, we recommend that the military services 
designate an executive-level person to establish effective 
communication and coordination among DOD and military services 
on Department-wide mobility reduction efforts, as well as to 
provide leadership and accountability for their own efforts.
    With a mobility energy organizational framework in place, 
DOD would be better positioned to reduce its significant 
reliance on petroleum-based fuel and address energy challenges 
for the 21st century.
    This concludes my prepared remarks. I will be happy to 
answer any questions.
    [The prepared statement of Mr. Solis can be found in the 
Appendix on page 81.]
    Mr. Ortiz. Thank you, Mr. Solis.
    Before we go into the phase of questioning, I would like 
unanimous consent to allow members of the House Armed Services 
Committee to participate in the subcommittee hearing. After 
consultation with the minority, I ask unanimous consent that 
Mr. Bartlett and Mr. Davis, members of the House Armed Services 
Committee, be allowed to participate in today's readiness 
hearing and be authorized to ask questions from the witnesses. 
Mr. Bartlett and Mr. Davis will be recognized at the conclusion 
of questioning by the members of the Readiness Subcommittee. 
Hearing no objection, so ordered.
    We thank you so much for your testimony this morning. I 
think we can learn a lot from you. This is something that all 
of us need to work together to be able to bring the savings 
that we need to. I know it is harder on my family to be paying 
close to $4 a gallon.
    Mr. DiPetto, based on your experience with the fully-
burdened cost of fuel pilot programs, what do you see as the 
biggest challenge to implementing a fully-burdened cost of fuel 
mentality? Do any of these challenges cause you to reconsider 
whether this is a good idea to do that?
    Mr. DiPetto. Let me answer the latter part of the question 
first. No, none of the challenges we have experienced so far in 
executing the pilot programs would cause us to re-think whether 
this is a good idea or not. Clearly, there are some challenges. 
We are nearing the conclusion, hopefully this summer, of the 
pilot programs. We have learned quite a number of lessons in 
executing these.
    One of the biggest lessons we have learned to date, it has 
become quite apparent that the acquisition trade space is 
significantly constrained by decisions in the force planning 
and requirements business processes that precede it. So without 
applying fuel considerations and the value of fuel delivered to 
the battle space very early in DOD's corporate processes, there 
is a limit to what we can do in the acquisition trade space. So 
I would probably highlight that as our biggest initial 
observation in the pilot program.
    Again, nothing that we have learned so far would question 
the initial assumption that this makes good sense and is 
something the Department should do.
    Mr. Ortiz. So you think we have taken the right steps?
    Mr. DiPetto. Absolutely. We are still maturing the 
methodology and the analytical approach. We still have a lot of 
work to do to incorporate it, even in the acquisition business 
processes. But yes, I think we are on the right path.
    Mr. Ortiz. Mr. Arny, DOD's installations are required to 
meet many energy goals. Could you more or less enlighten us or 
elaborate on DOD's plans to achieve these goals with an 
emphasis on the two that DOD and the services have at their 
disposal? Also, in your written testimony, you identify some 
concerns about meeting some of the new requirements. Could you 
elaborate on these concerns? I know I am asking too many 
questions, but maybe you can respond. Does the Department need 
any legislative assistance to meet these goals? Can you give us 
an idea?
    Mr. Arny. We have a number of tools. Again, as I mentioned 
in oral testimony, you all had reauthorized some of the Energy 
Savings Performance Contracts (ESPC) that we have, so we are 
able to proceed forward. Let me give you an example of where we 
were able to use it was at the carrier pier in Ukuskit. We have 
a power plant. We are about to put in a large military 
construction (MILCON) project to upgrade that for when we bring 
in the nuclear carrier. We were able to do that with no money 
up front through ESPC by bringing in a developer who could 
develop the power plant, charge us the same amount of money. 
Instead of one kind of electricity, we get both 60- and 50-
cycle power, as well as the level of pure water that we need to 
work with the carriers.
    So we have a number of those in place. Part of our problem 
I see, we are analyzing the latest legislation to see how that 
affects us, so I have to get back to you on the answer to that. 
But we do have tools in place. We do think we can meet the 
goals. It is harder because in the directives we are asked to 
go on a steeper slope, but working with all the services, we 
believe we can meet those targets.
    [The information referred to can be found in the Appendix 
beginning on page 103.]
    Mr. Ortiz. I would like to allow my good friend Mr. Forbes 
to introduce a new member from the minority who is with us.
    Mr. Forbes. Thank you, Mr. Chairman.
    We are delighted to have with us today our newest member of 
the Armed Services Committee and also the Readiness 
Subcommittee, Mr. Rob Wittman, from the First District of 
Virginia. He likes to refer to it as the first district of 
America, but we are certainly excited to have him with us, Mr. 
Chairman. Thank you for that opportunity. We are delighted to 
have him and looking forward to great things from him.
    Mr. Ortiz. Welcome. They told me you would be the one that 
would be able to solve the energy crisis. [Laughter.]
    Let me yield to my good friend, Mr. Forbes, for any 
questions that he might have. In a few minutes, we might have 
to recess. I don't know how many votes we have, but when I look 
at those lights--but is it two votes now? So let me go ahead 
and yield to my good friend, Mr. Forbes, for any questions that 
he might have.
    Mr. Forbes. Mr. Chairman, thank you so much. Again, I want 
to thank you for your leadership in holding this. We have had a 
couple of really important hearings this week, and we thank you 
for your vision on doing that, and for your patience in the 
number of questions that I think all of us would have.
    Mr. DiPetto, first of all, I would like to ask you, in your 
written statement you make a brief comment regarding your 
limited ability to perform analysis, for example through 
modelings and simulation, war-gaming, and other accepted tools 
in order to determine what it is worth to the larger force to 
invest in fuel efficiency technology. I am a firm believer in 
modeling and simulation, and the dollars it saves us and the 
forecasting abilities it gives us. What needs to be done to 
ensure the Department has the modeling and simulation tools it 
needs to aid in making these value judgments?
    One of the challenges in implementing change is that you 
have to get buy-in at the lowest levels. Do you believe that 
having appropriate modeling and simulation tools would increase 
warfighter awareness and advocacy of energy efficiency in the 
Department?
    Mr. DiPetto. In one of my other hats, I sit on DOD's 
modeling and simulation (M&S) steering committee, Congressman 
Forbes, so I, too, agree on the value of modeling and 
simulation. In my written statement, I was referring to the 
lack of those tools up front in the business processes to let 
us actually see the consequences of the fuel demand in the 
battle space. One of our hopes is that as we sort through the 
Department's vision on energy posture and develop our strategic 
plan going ahead, some of those priorities will be reflected 
and realized as we execute the strategic plan going forward.
    What we are talking about there is specifically the tools 
to let the warfighters, both in campaign analysis and in 
variety of analytical agendas, actually see the utility of 
reducing fuel in the battle space and how the burden of fuel 
detracts from combat capability. So I would be a firm 
supporter, and I think we will push going forward in that area. 
It is a little out of my lane. I am an acquisition guy, but we 
see the need, as I mentioned in answering the chairman's 
question, to poke earlier in the corporate processes the value 
of fuel, and M&S would be a big enabler to that.
    Mr. Forbes. If you determine that there are any specific 
things that we can do, if you would submit them to us for the 
record so that we can work to try to do that, we certainly want 
to make sure those tools are available and we are moving 
forward with them.
    Mr. DiPetto. Yes, sir.
    [The information referred to can be found in the Appendix 
beginning on page 103.]
    Mr. Forbes. I have two other questions. One of them is a 
little bit larger, then General Carns, one for you that if we 
have time for you to answer, if not, maybe you could submit it 
for the record. The big concern I have is, I am aware that 
section 526 of the Energy Independence Security Act of 2007 
prohibits any federal agency from contracting for an 
alternative or synthetic fuel, including the fuel produced from 
nonconventional petroleum sources unless the contract specifies 
that the life-cycle greenhouse gas emissions be less than or 
equal to the emissions from conventional fuel.
    My question for any of our witnesses, if you can comment on 
the impact of this legislation to the DOD and to the U.S. 
economy and security. Is it likely that this legislation will 
only make us more dependent on Middle East oil because we 
cannot rely on sources such as Canadian tar sands to meet our 
Nation's petroleum requirements?
    Mr. Arny. Sir, I wanted to mention that earlier. The 
problem we have with that is we are trying to figure out 
exactly what it says. Many of the provisions are ill-defined, 
and we are just not sure how it will affect us. We have the 
same concerns you do, and we would like to work with you to see 
if we can't, with the subcommittee, refine that. The goals seem 
laudable, but we are just not sure of the effect, and we have 
some of the same concerns as you do.
    Mr. Forbes. Well, if you could get back with us when you 
get that information, I think this is a very costly thing for 
us and could be one of those things where we have some 
unintended consequences that could be rather devastating. So 
anything you could submit for the record.
    [The information referred to can be found in the Appendix 
beginning on page 103.]
    Mr. Forbes. General, I know we have to run for a vote, but 
one of the things--you made a comment that I think is very 
appropriate. I just want to quote it again, if I can, but you 
said, ``Logistics is a vulnerable soft underbelly for us and a 
target-rich environment for our enemies. The larger our 
logistics tail gets, the more difficult it is to protect and 
more combat power we must divert from combat operations to 
assure its safety, and the more casualties we take because our 
supply trucks can never be as survivable as our combat 
vehicles.''
    I have always been interested in logistics because Fort Lee 
is in my district and we like to refer to them as the logistics 
capital of the Nation, sometimes the world. It is not sexy what 
they do, but it is so vital to the operations we have. If we 
implemented all the DSB recommendations today, it would still 
be years before we began to see the full effect. My question 
today is, what, if anything, can be done today to reduce the 
risk to our forces that are currently engaged in the global war 
on terror?
    As you answer that, let me just point out for those 
listening today, we are now transporting in just fuel alone 
into Iraq on a daily basis about 1.5 million gallons of gas a 
day, with 200,000 gallons coming in per day from the north; 
about 500,000 gallons coming in from Jordan; and about 800,000 
gallons coming in from Kuwait. The lines--we have pictures--are 
sometimes as long as 32 miles long. I mean, that is a very real 
risk that we have, a very difficult logistical problem.
    General, what can we do as quickly as possible to protect 
those forces that are there?
    General Carns. Mr. Congressman, I would first say our near-
term alternatives are always limited because we have already 
capitalized the systems. The Congress has been most generous in 
funding such efforts as the Joint Improvised Explosive Device 
Defeat Organization (JIEDDO), which has made a material 
difference in reducing casualties, as well as the more-armored 
vehicles. But so far as what we can do near term, there are 
very limited options.
    In the medium and long term, there are a number of 
suggestions in the report that emphasize if we can make the 
systems more efficient, we need less fuel, and of course we get 
more fight. In that respect, it is that we have to get very 
serious about innovative research and competitive prototyping, 
rather than trying to just put appliques on existing systems.
    In that respect, a program like Reset, which the Army is 
committed to and is on the order of an $85 billion program, in 
my estimation puts us too much back to the future, rather than 
in the future, in the sense that we are going to refurbish what 
we have, rather than forcing technologies to give us new 
capabilities which are so desperately needed.
    When we designed the systems we now have, our expectation 
was that we would have a safe rear area. We are now in a 
situation where we do not have that luxury. We have to adapt 
and build new innovative ways to make sure we can reliably 
operate in this hostile environment and supply the forces with 
the logistics they need.
    Mr. Forbes. Thank you, general.
    Mr. Chairman, I yield back the balance of my time.
    Mr. Ortiz. Thank you.
    We are going to recess hopefully for 10 minutes, and we 
will be coming back. The next member to ask questions when we 
return is going to be Mr. Hayes. So we are going to be 
recessing for about 10 or 15 minutes, and I hope there is no 
other vote to adjourn.
    Thank you.
    [Recess.]
    Mr. Ortiz. Okay, our hearing will resume. Mr. Hayes will be 
the first gentleman who has some questions, right?
    Mr. Hayes. Thank you, Mr. Chairman.
    Gentlemen, thank you. As you may know, I represent Fort 
Bragg and Pope Air Force Base. We appreciate the efforts that 
the military and you in particular are making to develop 
alternative sources of energy which is critically important. I 
mentioned to you on the way out that I would like for you to 
comment on how the Germans were able in the last two years of 
World War II to operate their military on synthetic fuel, and 
relate that to what we are doing now.
    Also, if you would talk a little bit more about what is 
being done at Fort Bragg and in the Air Force in developing 
alternative fuel sources. As you are commenting, I would 
appreciate your comments on us not losing sight of the bigger 
energy picture, whereby exploration, nuclear power, 
gasification of our most abundant resource, coal, and how all 
those things play in. If anybody would like to start, please do 
so.
    Mr. DiPetto. I could start.
    Sir, it is my understanding historically that the Germans 
used or actually developed a process for liquefaction of coal 
when they were denied the ability to use conventional petroleum 
resources to fuel their air force. The process is called 
Fischer-Tropsch, which I think the South Africans are still 
doing to this day. It is called liquefaction process. That is 
about as deep as I go on that issue.
    Regarding the Air Force efforts on alternative energy, they 
are in fact proceeding down a path to test the use of synthetic 
fuels in their major mobility aircraft and some of their combat 
aircraft as well. So they are on a path to test and certify 
those fuels to give them the ability to use the fuel. I think 
that is about as deep as I can go.
    The other issues, I am going to hand over to Wayne. I think 
the nuclear----
    Mr. Arny. I do know that the Air Force, as far as 
installation, the Air Force is looking at, as the lead agency 
for us, looking particularly at is it feasible to do nuclear 
power on some basis. We are all interested in what are the 
parameters of that and what are the pluses and minuses. That 
will be examined by the Department.
    As far as other forms of installation energy, we have 
geothermal plants in the west. We are putting more solar. We 
are using the energy legislation we have now to modernize. We 
have a lot of old power plants. We are either privatizing them 
or trying to modernize them. Just by putting in new equipment, 
we get better efficiency out of it. So there are a number of 
things we are doing in terms of, for instance, very simple 
things.
    We never metered the homes or any of the buildings that we 
had on our bases. Energy was just a cost we paid. We are now 
beginning to meter all of our homes whether they are privatized 
or whether we own them, and incentivizing the residents to 
conserve energy. In the old family housing when I was a junior 
officer, you could have the air conditioning running with the 
windows open. It didn't matter because you didn't pay for it. 
Now, we are incentivizing the members to conserve energy as 
well.
    So we are trying to do as much as we can using every aspect 
that we can get to. As I said, we are doing more and more 
exploration for geothermal using the profits that we get from 
the existing plant. We are also looking to extend that to 
exploit potential energy sources that are under our bases which 
we really don't have the incentive to do right now. So there 
are a number of things we are trying to do.
    General Carns. Congressman Hayes, if I could comment very 
briefly. The Germans thought up those ideas for the same reason 
we need to do so. Namely, they were in a crisis. There was not 
another alternative and so innovation bloomed very quickly. The 
price of oil is driving us obviously to be more innovative, and 
if there is a criticism it would be that we are not moving fast 
enough.
    In that respect, you mentioned nuclear. I would offer the 
following operational perspective. As mentioned earlier, we 
have notionally identified a number of capabilities at 
installations which are essential for maintaining situational 
awareness and being able to execute the forces in support of 
national security objectives. In that respect, nuclear provides 
an interesting opportunity in that were we to put nuclear 
capability, nuclear power generation capability in selected 
locations, we have the opportunity to put it in a secure 
environment on an installation, and we have a way to not only 
provide power to the base, but if there were a major 
interruption in an area or a region, these facilities could 
probably provide considerable power for the surrounding area.
    It will not work to have a large power outage where we 
crank the generators on the base and light up only the 
installation, while the civilians who live within 10, 20, or 50 
miles live in darkness for days or weeks or more. So nuclear is 
one of the alternatives that may be a very interesting option 
and it provides a secure federal facility to put it.
    Mr. Hayes. I appreciate those comments. To wrap up, Mr. 
Chairman, I think if people were to go back and look at the so-
called nuclear accidents--and Mr. Bartlett is much more of an 
expert than I am--the things that were left out of the 
construction of the plant in Chernobyl and the other things 
that happened, if you have some real skeptics, it means that 
with modern techniques and proper supervision, nuclear is 
extremely safe.
    Last but not least, if the oil speculators who are holding 
us up for foreign oil were to see us get more actively involved 
in additional exploration, nuclear and others, that would be a 
good backstop against the marketplace.
    Thank you, Mr. Chairman.
    Mr. Ortiz. Thank you.
    My good friend from Mississippi yields to our friend, Mr. 
Courtney.
    Mr. Courtney. Thank you, Mr. Ortiz.
    Thank you, Mr. Taylor.
    I actually just have a quick question, which maybe I can 
start with Secretary Arny. There was in the last defense budget 
some funding toward Specialized Technology Resources (STR) 
Technology in Connecticut. They make the fabric for solar 
panels which are going to be incorporated into pop-up tents and 
actually backpacks to power radio equipment. Again, this is a 
firm that is doing lots of work for the German effort to 
promote renewable energy. Again, it was exciting to go to this 
facility where they are probably looking at adding about 100 
new production jobs based on this contract from the Department 
of Defense.
    When you think of solar, you always think of stationary 
panels that are installed in buildings. Again, is it the 
Pentagon's intention to really try and use it in other more 
nontraditional manners?
    Mr. DiPetto. I can take that question, congressman.
    I am not familiar with that specific effort, but in general 
if one looks at the cost of delivering the fuel to run 
generators, for example, in the battle space, renewable power, 
onsite generation has a huge advantage in terms of reducing the 
logistics flow of fuel to theater if you can generate power 
organically right there.
    Certainly, solar is one aspect of getting at that demand 
reduction, but on the supply side, onsite generation from 
something like wind or solar organically, or even for the 
combat warrior on foot, re-charging batteries. So there is a 
terrific application in-theater for that type of technology. I 
am not familiar with that specific effort, but----
    Mr. Arny. Is this technology just man-carried, or is it for 
facilities as well?
    Mr. Courtney. Again, the specific contract was for man-
carried. Again, obviously, we have people deployed in parts of 
the world where there is lots of sunlight, so it would seem 
like a pretty smart direction
    Mr. Arny. Absolutely. I will take a look at it. Also, I 
know for our buildings, again as one of the members mentioned, 
this is all driven by cost and having to save. One of the 
things that we are doing, a lot of our buildings, as you have 
seen, have flat roofs on them, and we tend to paint them black. 
We are now looking at--not just us, but the private sector as 
well--at embedding solar panels in the roof just to keep 
bringing electricity.
    And the solar technology is getting better and better. As 
the technology goes, as the price of fuel goes up, it becomes 
more efficient. In the early days, we were having to subsidize 
our solar. To me, it was a little bizarre being basically a 
private sector guy, that out in San Diego we put solar panels 
in a parking area, you know, with nice sunlight, and we 
subsidized it with our geothermal revenue, but we also had 
state subsidies in there. I thought that was a little strange 
that, okay, the Federal Government is getting subsidies from 
the state. But anyway, it worked. But now it is becoming more 
efficient.
    In particular, the 14 megawatt plant at Nellis, they have a 
long-term energy contract to buy electricity from that cheaper 
than they would have with the price of electricity they were 
getting. Ten years ago, you couldn't have done that.
    Mr. Courtney. I would like to again follow up with you in 
terms of this project, which again, it is very exciting. Again, 
you are right. The photovoltaic technology is just improving 
and becoming more efficient so that you actually can squeeze 
more out of every square foot.
    So thank you, Mr. Chairman.
    Mr. Arny. You know, in hangars, we are even putting in huge 
fans. If you think about it, put giant fans in the top of 
aircraft hangars just to keep the air moving to keep it running 
more efficiently. There are lots of new technologies.
    Mr. Ortiz. Mr. Wittman.
    Mr. Wittman. Thank you, Mr. Chairman.
    It is great to be part of this committee and it is great to 
be learning about these readiness issues. I appreciate the 
opportunity.
    The U.S. Air Force has articulated ambitious goals with 
respect to the development and use of domestically produced 
synthetic fuels. Those things include accelerating the 
development and use of alternative fuels, increasing the use of 
synthetic fuels to 100 million gallons in the next 2 years, and 
certifying the entire fleet on Fischer-Tropsch (FT) fuel by 
2011, and having 50 percent of the U.S. Air Force fuel being 
synthetic fuels by the year 2016.
    Just a couple of questions within that particular 
framework. What steps are being taken to ensure that the U.S. 
Air Force will be able to achieve these goals that they have 
put forth? And what steps are being taken to ensure that 
section 526 of the Energy Independence and Security Act of 2007 
will not interfere with the U.S. Air Force goals?
    Mr. DiPetto. I am going to try and answer that one as best 
I can. I am not a fuels guy. I am an acquisition demand-side 
guy. I might have to defer you for specifics to the Air Force. 
The Department's position on alternative fuels recognizes that 
DOD, because we are such a small percentage of the fuels 
market, will never be a market-driver. However that said, we 
very well might be a market participant down the future. So the 
Air Force efforts in certifying and testing probably go along 
those lines to becoming a potential market participant.
    That said, the under secretary--and I believe he speaks for 
the deputy secretary--recommends we take a very cautious 
approach to alternative fuels across the board. One recognition 
is that supply-side solutions don't particularly solve our most 
pressing problems, which is the cost of delivery of fuel into 
the battle space. We feel and various Defense Science Board 
studies have recognized that as DOD's most pressing challenge. 
But some of these type of issues, the recommendations of the 
various recent studies, the Air Force efforts will be sorted 
out as we develop the Department's energy strategic plan 
debriefed up to the Deputy Secretary in the coming months.
    Mr. Arny. Let me, if I could, I will add to that. I know 
that the Air Force has stated publicly that they are looking 
for--I won't say cost-equal, but it must be cost-effective and 
have no larger footprint than they can get under conventional 
fuels. As I said earlier, the Department is examining the 
effect of section 526 on all our aspects, and we intend to come 
back to the Congress with the answer on that.
    Mr. Wittman. Thank you. Yes, I know that those goals are 
very aggressive and we just wanted to try to gauge where the 
effort is.
    Mr. Arny. If I recall, I was with Mr. Anderson yesterday 
when he was talking about it, they are targets, rather than 
goals. That is what they would like. If they don't get there, 
it is an effort to break new ground. So if they don't make the 
targets, but they make progress, that is also progress.
    Mr. Wittman. I know they are looking across the board as 
far as synthetic fuels. One of the efforts I know they are 
pushing to undertake is coal to liquid fuel, and I know that is 
an aggressive part of the process I just wanted to gauge. Is 
that still continuing to be part of the strategy that they are 
pursuing in this transition to increasing synthetic fuel use?
    Mr. Arny. I believe so. We will get you a specific answer 
on that.
    Mr. Wittman. One additional question, in DOD's response to 
GAO's report, DOD stated that it plans to address the issue of 
military service governments and oversight of energy matters 
once it completes its strategic plan in May, 2008. However, the 
military services have various mobility energy reduction 
efforts currently underway.
    In the absence of executive-level military service focal 
points for mobility energy, how are the services prioritizing 
their own efforts and ensuring effective information-sharing 
with each other and with the Department?
    Mr. DiPetto. Again, I cannot speak for the services, 
congressman. However, we have some visibility in our 
acquisition role in overseeing major defense acquisition 
programs and the acquisition of tactical systems. So we have 
some visibility into how the services are addressing mobility 
fuel. They have been participating with us on the fully-
burdened cost of fuel pilot programs to shake out the 
methodology to move that forward hopefully next year. We are 
working three pilot programs with each of the service.
    But in terms of service priorities on mobility fuel, I 
would have to defer to the services on that. I don't have any 
insight on that.
    Mr. Arny. But we do bring it together at OSD, and we are 
trying to do a better job. Obviously, energy has become much 
bigger since I have been here. I know Al Shaffer chairs the 
Energy Security Task Force, which has participation by all the 
services at senior levels. We are doing more and more of that, 
because we do need to prioritize all these efforts and bring 
them together and make sure they all make sense across the 
Department.
    Mr. Ortiz. Thank you.
    Mrs. Boyda.
    Mrs. Boyda. Thank you very much, Mr. Chairman.
    Energy is such an incredibly important topic. When I talk 
about energy back at home, I talk about it from a national 
security standpoint, so having you guys here today really is 
that intersection of national security, from whether you are 
driving in Kansas or trying to fight terrorism.
    I apologize. I have had to be kind of in and out, so I may 
be going over plowed ground already. But so many of us have 
talked about this go-to-the-moon with National Aeronautics and 
Space Administration (NASA), when John Kennedy said in eight 
years or before the end of the decade, we are going to go to 
the moon. We have all said that we need a comprehensive energy 
policy and somebody who really has firm hands on that steering 
wheel and is guiding this. We haven't had that. We haven't even 
gotten close to it.
    Is there any vision or is there any possibility that--
again, if we have already been talking about this, I 
apologize--but is this task force or is there a possibility 
that the United States military will be able to bring together 
the research that is needed, the brains that are needed? You 
have a huge laboratory. It is called the United States Air 
Force, Army, Marines, nuclear submarines. Are we envisioning 
any of that?
    Mr. Solis. I will just take a quick stab at that. I think 
the military does have the ability to do it, but I think in the 
current organizational structure and lack of overall 
leadership, particularly on the mobility side, I think it is 
going to be a real challenge to bring all that to bear.
    The question was just asked about do we have oversight of 
what the military services are doing and is everybody going in 
the same direction in terms of goals and objectives, and are we 
on the same wavelength. You know, there has been a lot of 
discussion today about individual initiatives, and those are 
all great and good, but the question is, how are they achieving 
the goal of reducing, say, energy fuel demands in a forward-
deployed operation? What are we doing?
    I mentioned the Marine Corps commandant to you. Several 
years ago, he put a goal out there to reduce by 10 percent. You 
know, those are the kinds of things when you have to look 
across and say, are we positioned to do this.
    Mrs. Boyda. We had something called NASA. We didn't get to 
the moon because we had a few task forces here and there. We 
got to the moon because somebody took some leadership. You have 
not been given that mission, clearly. But if you were, and I 
know today we wouldn't have the capability, but if you were, 
what would you think about it being, is it even a reasonable 
mission to assign not to one branch of the military, but to our 
DOD?
    Mr. Arny. Chris had mentioned it, and in my testimony I 
talked that while we do consume, and we are the single largest 
consumer of energy, we are still between one percent and two 
percent. We do rely on the private sector. I believe we do have 
leadership in this field.
    When it comes to mobility vehicles, as far back as 20 or 30 
years ago, I know in the destroyers and cruisers, the guys 
working--everybody works on a weapons system. I flew F-4s. We 
all know how to conserve fuel and when we have to. I could stay 
airborne in my F-4 for three hours. It was a boring flight 
because I wasn't doing much. On the other hand, I could come 
back empty in 10 or 15 minutes with the same load of gas 
because I was on a combat mission.
    Mrs. Boyda. What I am looking for is not so much 
applications to the military. I am looking for applications on 
the civilian side.
    Mr. Arny. I am not sure that it is the mission of the 
Defense Department to lead that. We have our own problems, 
again within installations in my field, within mobility, that 
we all wrestle with. Every operator wrestles with that. We rely 
on the private sector to bring that to us. A lot of the things 
we are doing in installations is not stuff that is new to us. 
It is exploiting what the civilian industry is doing.
    Mrs. Boyda. What do you see is the leadership role? Mr. 
Hayes was speaking about it, but I have been one to say we 
should not start digging tomorrow. We are not going to start 
digging tomorrow, but why we are not really aggressively 
bringing nuclear into the overall discussion. We are paying for 
that decision every day that we let it go by.
    Certainly, I would think that we have a lot of good 
nuclear. The Air Force is building some small nuclear----
    Mr. Arny. No, they are not building. They have gone out 
with an RFI--request for information--on what is available. You 
and Congress, and I know we have seen people will come to your 
door and say, I can do X for you. And you peel away the skins 
of the onion and you find there is nothing there. So the Air 
Force has gone out with RFIs and said, okay, what can you do 
for us, in what timeframe, at what cost.
    And we will get that information back and look at it from 
the Air Force as a department, and then sit down and say, does 
this make sense. If we put this power plant on a particular 
base, does it make sense economically. Because let's face it, 
people are trying to buy weapons systems and personnel costs 
and medical costs, so we have to compete for dollars to do 
things with other things.
    So can this be done economically for us, and our economics 
may be different than the private sector so it may work that 
way, but then also does that plant encroach on the base? Is 
there enough excess space on that base for something like that? 
What are the aspects? How do you tie it into the grid? There 
are all sorts of things that we will look at. I think, frankly, 
like it or not, we are in the lead on that.
    Mrs. Boyda. It works for me.
    Mr. Arny. That is why we have to be careful about it.
    Mrs. Boyda. Thank you.
    Mr. Ortiz. Mr. Taylor.
    Mr. Taylor. Thank you, gentlemen, for being here. You have 
certainly raised some interesting thoughts. I am not so sure I 
am hearing any answers.
    Number one, if 75 percent of our fuel is mobility, and if 
the Navy is a significant portion of that, we really don't have 
an option on planes just yet. We really don't have an option on 
Humvees just yet. We do have an option on the propulsion of 
naval ships. We were going toward an all-nuclear surface fleet, 
then we got fat and lazy when oil was cheap. I haven't heard 
you guys talk about the importance of doing that.
    We have another generation of cruisers coming along. This 
Congress has passed legislation that says that next generation 
of cruisers is going to be nuclear powered. We are getting some 
pushback from the Navy. And quite frankly, if it made sense 
when we did the study a year ago at $70-a-barrel fuel, you guys 
ought to be all over it at $110 fuel. I haven't heard a word on 
that, and the need to take other plants where applicable and 
make them nuclear powered.
    The second thing, even on a smaller scale, I am just 
curious. I consider myself kind of a mechanical nut. I am 
amazed when I go to visit the troops in the field and see those 
diesel-powered generators. In any base you go to in Iraq or 
Afghanistan, there is just the deafening sound of those 
generators. Those generators are powering electric water 
heaters, electric heaters in barracks.
    Although on commercial boats and even recreational boats, 
it has been common for years to have the heat exchanger, the 
heat coming off that engine going through a heat exchanger to 
warm the water on the boat, to warm the people on the boat 
through something like your car heater. I have yet to have seen 
that on a military installation.
    Now, that is two commonsense approaches that I can buy 
today from Hamilton Marine catalog that I haven't seen on a 
single military installation. Why not? As a matter of fact, I 
have both of those things on my boat. So why isn't the DOD 
doing it? And why aren't you guys recommending it? I take the 
engine, the heat. The hot water coming off my engine heats my 
boat in the winter and heats the water that I use in the 
shower. And yet I have never seen it on a DOD installation.
    Mr. Arny. On an installation or on a----
    Mr. Taylor. A base where you are using a generator. And 
again, those generators, you made us aware of what is well over 
one million gallons a day we are trucking into Iraq and 
Afghanistan.
    Mr. Arny. I believe on our domestic----
    Mr. Taylor. And believe me, I want the kids to take a hot 
shower during the winter. I want the kids to be warm in their 
barracks, but again, those are commonsense approaches that are 
available through the private sector that I have yet to see on 
a military installation. Why not?
    Mr. Arny. I will have to get back to you on that.
    For deployed forces especially, I don't know the answer. 
For the stateside installations, obviously the diesel 
generators are used for backup.
    [The information referred to can be found in the Appendix 
beginning on page 104.]
    Mr. Taylor. I understand. But let's talk about deployed, 
particularly deployed.
    Mr. Arny. I can't answer that for you.
    Mr. Taylor. One of the last visions I have of going to 
Kuwait is seeing a 300-truck convoy forming up, and knowing 
that every inch that those guys are traveling could be the inch 
that is mined, and that is going on every day, the days whether 
I am there or not. They are performing a very important 
function, and quite frankly if I was an enemy of the United 
States, the first thing I would do is go after our fuel supply.
    Mr. DiPetto. Congressman, in terms of the deployed use of 
energy, forward operating bases, the Department recognizes the 
problem delivering fuel to the battle space in those vulnerable 
supply convoys. We have a group called the rapid equipping 
force which is actually working in-theater right now to tackle 
the problems you are raising. They are looking at it on both 
the demand and the supply side. The demand side is looking at 
more efficient generators in whatever capacity. I can't speak 
specifically to the systems that you referenced, but clearly 
more generating efficiency would reduce that need for fuel in-
theater.
    They are also looking strongly on the demand side. 
Insulating tents, for instance, has brought down the need for 
fuel to run those generators incredibly. Some renewable power 
solutions are also being looked at, but the Department 
recognizes the severe burden by inefficient generators, as you 
mentioned, in-theater.
    Mr. Taylor. No, you are not making use of the incredible 
amount of heat that is available just in the water that is 
cooling those generators. By using the heat exchanger, you 
would have more than enough hot water for all the showers. By 
using the heat exchanger--again, it is not going to work if the 
tent is two miles from the generator, but if the tent is 200 
yards from the generator, that ought to be very simple.
    Mr. DiPetto. I will take that back, sir. We are looking at 
all solutions. The magnitude of the problem----
    [The information referred to can be found in the Appendix 
beginning on page 104.]
    Mr. Taylor. Well, apparently you are not. If I can figure 
this out, then you are not doing your job. Sorry. Again, 
without a word on nuclear, which is something that Admiral 
Rickover was exactly right about 30 or 50 years ago. Again, I 
would think that your boards ought to be the ones saying to a 
reluctant Navy, guys, this is the only way to go; accept the 
future. And we are going to have to change some things, but 
this is the way we have to go.
    I would welcome your comments on either one of those. We 
don't exactly have a big crowd in here, and I think the 
chairman would waive the five-minute rule for a minute or two.
    Mr. Ortiz. Sure. Go ahead. And I was just wondering, you 
don't come to testify on the research that you are doing. Do 
you have any limitations as to what you can look at?
    Mr. DiPetto. I am sorry, sir. Limitations to research?
    Mr. Ortiz. Yes.
    Mr. DiPetto. The major limitation is that everything needs 
to compete in the budget year with other priorities we have. 
That is typically the limitation. And it also has to compete on 
an economic basis, so business cases certainly get looked at.
    I cannot speak specifically to the congressman's concern 
about nuclear power in cruisers, but I know the Navy is 
extremely motivated to do the analysis properly. Particularly, 
I don't have any specifics on it. I could take that back for 
the record and find out a little bit more about their specific 
analysis for service ships, for example. It is a little bit out 
of my lane, but we are happy to take that back.
    [The information referred to can be found in the Appendix 
beginning on page 103.]
    Mr. Taylor. If I may, Mr. Chairman.
    A year ago, we had a study which said for the cruiser it 
made sense at $70-a-barrel fuel to go nuclear. At the time, the 
Landing Platform Dock (LPD) was right on, to use a carpenter's 
analogy, right on the bubble. That was at $70 fuel. What is 
amazing is that now that it is at $110, I don't hear anyone 
from the Navy who ought to be proposing this, saying, you know 
what? It is time for a nuclear-powered LPD and large-deck 
amphibs. I would think someone within the DOD would be taking 
the lead on this.
    Now, I don't mind doing it, and Congressman Bartlett 
certainly doesn't mind doing it, but that really ought to be 
coming from the uniformed services. And ought to be willingly 
accepted by the uniformed services, rather than something we 
literally seem like we are forcing it down their throats. So 
how would you change that, sir? I would think that is what your 
panel is all about.
    Mr. Arny. Mr. Taylor.
    Mr. Taylor. Yes, sir.
    Mr. Arny. I agree. We need to take a look at it. I don't 
know the study referred to, but if it was effective at $70 a 
barrel, it ought to be more so at $110 a barrel. There may be 
some other supply, tonnage, weight, redesign of a ship into it, 
but we definitely from the OSD perspective should push that 
analysis to make sure, because there are definite advantages. I 
flew off nuclear-powered aircraft carriers. I also flew off 
conventionally powered carriers. There is definitely an 
advantage to nuclear power, especially in the aircraft carrier 
business.
    So we will push that with the service, the Navy, to make 
sure that that analysis is complete, and then get back to you.
    [The information referred to can be found in the Appendix 
beginning on page 104.]
    Mr. Taylor. Thank you, Mr. Chairman.
    Mr. Ortiz. I think Mr. Taylor has had some good 
recommendations. It is the small little inventions that can 
grow into something big. I hope that when you guys study it, 
maybe give us some answers that we can work with.
    I am sorry. Go ahead.
    Mr. Arny. You can see the efficiency as we have in nuclear 
power. The Enterprise, which is still out there, had I think 
eight generators on it, and now we do it with two on a carrier, 
on modern carriers. So the plants are more efficient as design 
propels itself. Back then, it was definitely not cost that was 
driving it. If it had been cost, we would have not put nuclear 
power on those ships because it did cost more in the end.
    As a matter of fact, you remember the great debate over the 
JFK that was supposed to have been nuclear, then it was 
conventional, and it ended up being conventional. But today, 
with the price of fuel, you are right. That analysis could 
swing it and the plants are far more efficient than they were 
30 or 40 years ago.
    Mr. Ortiz. Mr. Bartlett.
    Mr. Bartlett. Thank you very much. And thank you again, Mr. 
Chairman, for letting me sit in on your hearing.
    My good friend, Mr. Taylor, mentioned Hyman Rickover. We 
fortunately listened to him about nuclear for submarines, but 
we didn't listen to him when he gave what I think will shortly 
be recognized as the most insightful speech given in the last 
century. Hyman Rickover gave a speech--it will be 51 years ago, 
on the 14th day of this May--to a group of physicians in St. 
Paul, Minnesota. It is the most insightful, prophetic speech 
that I have read relative to the problems that we are 
discussing today, that is energy.
    He noted that we were about 100 years into the age of oil, 
and that out of 8,000 years of recorded history, there would be 
a brief age of oil. He didn't know how long it would be. Now we 
know pretty certainly how long the age of oil will be. We are 
150 years into the age of oil, and in another 150 years we will 
be through the age of oil. Hyman Rickover knew that would 
happen. He said that how long it lasted was important in only 
one regard: that the longer it lasted, the more time did we 
have to plan the necessary transition from fossil fuels to 
renewables.
    Now, we have done absolutely nothing to plan for that, with 
no more responsibility than the kids who found a cookie jar or 
the hog who found the feed room door open. We have just been 
pigging out on fossil fuels. And they are a finite resource.
    General Carns, you very wisely suggested that we ought to 
have nuclear electric generation at our military facilities. 
You are exactly right, sir, we need to be able to island those 
facilities because the grid is on the edge. When that power 
goes down, we will not be able to fight if we can't island 
ourselves, and nuclear is a great way. I would suggest, sir, 
that the first place we ought to do that is in Guam. There, the 
only electricity I think comes from diesel fuel, which is 
hauled in boats to the island. It is our most western landmass, 
very strategically located. We own about a third of the island?
    And there, your suggestion that we ought to be giving 
electricity use to the surrounding population would work 
perfectly. I talked to the commanders there and they understand 
that. I would hope that you could use your good influences to 
push and act in that direction.
    And I would hope, sir, that when we do that, following Mr. 
Taylor's suggestion, we really ought to be using what we call 
``district heat.'' I think we are probably the only country in 
the world that stupidly places our power plants outside the 
cities and then uses evaporated drinking water to dissipate the 
heat. Everywhere else in the world they locate them near 
population centers. And they use the heat that Mr. Taylor 
mentioned to heat your buildings, and so forth, in the 
wintertime, and cool yourself with the ammonia cycle 
refrigeration in the summertime with this excess heat. So I 
would hope that we would do that.
    By the way, we are talking about energy here as if it were 
fungible. Energy is really not all that fungible. I am pretty 
sanguine about our electricity future. With more nuclear, I 
think there could and should be a lot more nuclear with wind 
and with solar and with micro-hydro, we can, I think, meet our 
electricity needs. I am nowhere near as sanguine about our 
liquid fuels. There is just no silver bullet there. There is 
nothing out there in the near future that comes even close to 
providing the quantity and quality of the 88 million barrels of 
oil that we pump a day--22 million of those we use in our 
country.
    I really want to commend the military. You are the victims, 
and you are planning now. You are the victims of the fact that 
our country, in spite of signals that have been there for a 
very long time, that we would be here today talking about this 
issue with $110 oil was absolutely inevitable. It had to 
happen. Oil is finite. Hyman Rickover 51 years ago knew that we 
would be here today. It is inexcusable that our government has 
had no energy policy. And you in the military, thank you very 
much. You are doing more than any other entity in our country.
    You know, the evidences that we would be here are 
incontrovertible. Our country peaked in oil production in 1970, 
in spite of drilling more oil wells than all the rest of the 
world put together; in spite of finding a lot of oil in Alaska 
and the Gulf of Mexico; and in spite of being really good at 
enhanced oil recovery. In fact, we are getting now eight 
percent of the world's oil from two percent of the world's 
reserves. We now are producing half the oil that we did in 
1970. The same person that correctly predicted that 19 years 
before it happened said that about today the world would be 
peaking in oil production.
    Mr. Chairman, just one closing statement. Of the two great 
entities in the world that follow oil production, the IEA and 
the EIA, the International Energy Agency and the Energy 
Information Administration, have both been tracking the 
production and consumption, which are the same thing. We don't 
have any stockpile anywhere. We just consume it as we produce 
it. That has been flat for the last three years. In those last 
3 years, the cost of oil has gone up from $55 a barrel to $110 
a barrel. That is because production is flat, demand is 
increasing, and the probability is that without some really 
dramatic thing happening, the production for the world is going 
to do what it did for the United States in 1970. It is going to 
drop off.
    We now have blown 28 years as a country and as a world, 
because we knew darn well in 1980 that M. King Hubbert was 
right about the United States peaking in 1970. We are 10 years 
down the other side of Hubbert's peak. We have done absolutely 
nothing in spite of four studies, one of them by the military--
a great study by the military, a great study by GAO--saying 
that peaking of oil is either present or imminent, with 
potentially devastating consequences. Still, our country has 
done nothing.
    We desperately need leadership in this area. Thank you very 
much, DOD and military, for providing leadership from your 
quarter.
    Thank you, Mr. Chairman.
    Mr. Ortiz. Thank you so much. You know, sometimes we are so 
big that we fail to look at the little things that might be 
able to give us some answers as to how we can solve this 
problem.
    Before I close this subcommittee hearing, I would like to 
yield again to Mr. Taylor and see if he has any other questions 
or any recommendations. I think his recommendations are well 
taken. I think it makes a lot of sense.
    Mr. Taylor. Could I say just for the record, I am going to 
get you those examples of what I was talking about on the heat 
exchangers for the hot water heater, the heat exchangers for 
the actual cabin heat. Quite frankly, I don't see very much use 
of that on our naval vessels at all, and I will contrast that 
with a couple of years ago, the Marines purchased a Ukrainian 
vessel. They added a mid-body extension to it, by the name of 
the Roy Wheat that is now part of our prepositioned fleet.
    One of the things that the Russians had done pretty well 
was take just the heat coming off the exhaust, used it to 
super-heat water that actually turned an auxiliary turbine to 
get a few extra knots off the ship. It was a fairly complicated 
process. I am sure it had some labor associations with it. But 
again, they were doing a better job of making use of that waste 
heat than we do as a rule.
    Back when fuel was cheap and plentiful, maybe we didn't 
have to do stuff like that, but certainly the circumstances are 
there now where we have to. I would encourage you to do so. In 
fact, if I am not mistaken on the Roy Wheat, they actually 
disconnected the entire system as part of the transformation 
from a Ukrainian vessel to an American naval ship. Maybe it is 
time to look at it and reconnect it.
    Thank you, Mr. Chairman.
    Mr. Ortiz. Thank you so much.
    As we go on this journey, there just seems to be no place 
where we can find oil, and if we need it, we need to go to war. 
And we don't want to do that. So I know that we can work 
together and we can come up with some ideas. At least I have 
learned a lot today. I want to thank you for being with us 
today, for testifying before our panel.
    Randy, do you have any other comments to make?
    If not, thank you so much for testifying before our 
committee.
    This hearing stands adjourned.
    [Whereupon, at 12:34 p.m., the subcommittee was adjourned.]
?

      
=======================================================================




                            A P P E N D I X

                             March 13, 2008

=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 13, 2008

=======================================================================

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                             March 13, 2008

=======================================================================

      
             RESPONSES TO QUESTIONS SUBMITTED BY MR. ORTIZ

    Mr. Arny. The Energy Independence and Security Act (EISA) of 2007 
comprises 16 titles, each covering a substantive area of energy policy. 
The sections of this Act regarding assignment of energy managers to 
each facility impacted by the Act, establishing a web-based tracking 
system, conducting audits on 25 percent of affected facilities 
annually, and the requirement to design facilities to reduce fossil 
fuel use by 55 percent in 2010, increasing to 100 percent by 2030 will 
cause implementation problems for DoD.
    These issues are currently being discussed with the Department of 
Energy (DoE) to develop implementation guidance for federal agencies. 
The Department is concerned that initial DoE guidance would require a 
significant increase of personnel and funding resources that are not 
programmed and would not compete well against other DoD priorities. As 
such, we continue to discuss other means to achieve EISA requirements 
through the use of regional or pooling of assets. The Department does 
not believe legislative relief will be necessary, but if we do, we will 
seek the Congress's assistance.
    DoD believes there are not sufficient energy efficiency measures to 
achieve the 55 percent and 100 percent targets for some building types 
(such as medical facilities, laboratories, and industrial facilities) 
mandated in EISA. This requirement will also be more challenging due to 
the loss of renewable tax credits. The loss of tax credits for 
renewable energy investment and production have already begun to hamper 
efforts to continue development of renewable resources. As part of its 
implementation planning, the Department will determine if legislation 
reauthorizing the tax credits should be included within our tool kit. 
[See page 14.]
    Mr. DiPetto. The decision whether nuclear power propulsion will be 
incorporated in future surface combatants will be based on a thorough 
examination in compliance with statute. The analysis of alternatives 
(AoA) for the Maritime Air and Missile Defense of Joint Forces (MAMDJF) 
capability, which includes an assessment of CG(X) alternatives, 
examines both fuel efficient conventional power plants and nuclear 
power alternatives. The Office of the Under Secretary of Defense 
(OUSD(AT&L)) is learning from the experience of the CG(X) as well as 
the Air Force Next Generation Long Range Strike program, and the Army-
Marine Corps Joint Light Tactical Vehicle program, to develop methods 
and DoD guidance to more accurately factor operational fuel demand (and 
logistics force structure requirements) into the acquisition 
tradespace. This concept is called the Fully Burdened Cost of Fuel 
(FBCF), and joint planning estimates will be factored into all major 
programs in the future. This work will allow the Department to make 
more useful estimates for evaluating the fiscal cost of various 
propulsion options, hull forms, power requirements, construction 
materials, etc. The MAMDJF Analysis of Alternatives used a FBCF 
methodology in the analysis of alternative CG(X) power systems that 
addressed both conventionally fueled and nuclear options. The 
OUSD(AT&L) is reviewing the approach taken to inform the development of 
a Department-wide methodology that will be applicable to all types of 
systems and unit types. This FBCF construct will help the Department 
and industry to evaluate technological and design options to best 
manage the energy supply and energy demand options to best meet 
operational requirements and strategic sustainability requirements for 
future naval ships and other platforms. [See page 26.]
                                 ______
                                 
             RESPONSES TO QUESTIONS SUBMITTED BY MR. FORBES
    Mr. DiPetto. The Defense Science Board task force reports, both in 
2001 and 2008, discussed the need for DoD force planning models to play 
realistically the risks to missions resulting from the risk to fuel 
logistics and lines of communication in operations. They asserted that 
the DoD force planning process today tends to examine fuel and other 
``logistics'' issues as a dependent variable, not as an independent 
variable, when using models and other such analytic tools. While it 
appears that some modifications would be necessary to examine this fuel 
logistics risk more realistically, that is relatively simple to do from 
a programming and design standpoint. However, models are only changed 
when there is a clear demand from higher commands (typically Service 
staff force planners or warfighting commands), along with funding, for 
new modules to support new analyses. Hence, we have concentrated our 
work on developing an appreciation of this risk factor among those 
planners, such that the demand signal and resources flow to the 
modeling and analysis organizations within the Services. This work is 
on-going. The DoD Energy Security Strategic Plan, which is in draft, 
will include an annex with specific proposed tasks that will address 
the modeling issues related to analyzing DoD energy risks. [See page 
15.]
    Mr. Arny. In a January 30, 2008, letter (attached), Senators Henry 
Waxman and Tom Davis requested information on how the Department was 
complying with this legislation. The Department's response (attached) 
to that request stated that a plan was being developed to identify 
which fuels are covered and what standards will be used to measure 
compliance. This plan is being developed in conjunction with the 
Environmental Protection Agency and other federal agencies. The 
Department can not make a rational judgment on the impact of the 
legislation until this plan is completed.
    [The information referred to was not available at the time of 
printing.]
    The Department is concerned that the provision could have far-
reaching implications, including some forms of ethanol and bio-diesel, 
as well as synthetic fuels and petroleum derived from less traditional 
sources such as tar sands and oil-shale. Additionally, given that 
fuels, including conventional petroleum, are produced from numerous 
sources and often mixed together. Current standards for determining 
emissions of fuels from various origins are determined on averages. 
However, section 526 requires an analysis of individual fuel purchases 
for lifecycle greenhouse gas emissions. Therefore, determining the 
emissions footprint for any batch of fuel may be impossible. For 
example, conventional fuel derived from oil produced in Venezuela or 
Nigeria is more likely to have a larger footprint than domestic oil 
because of the energy used transporting the oil to the United States. 
Foreign and domestic oil may be mixed together at a refinery. Once 
foreign and domestic oils are mixed together, the oils cannot be 
differentiated from one another. Therefore, the footprint of the 
resulting fuel cannot be determined accurately under section 526.
    Finally, Section 526 applies worldwide, not just to purchases 
within the United States. There are no means to determine the lifecycle 
greenhouse gas emissions from non-domestically produced fuels. For 
example, our military aircraft used over 6 million gallons of Canadian 
jet fuel in 2007 while exercising with the Canadian Armed Forces, 
conducting joint operations along the Defense Early Warning line, and 
refueling at Canadian commercial airports. Canadian fuels include fuel 
produced from tar sands crude. If tar sands-derived fuels were subject 
to section 526, our military aircraft may be required to stop refueling 
in Canada, potentially affecting our national security. [See page 16.]
                                 ______
                                 
             RESPONSES TO QUESTIONS SUBMITTED BY MR. TAYLOR
    Mr. Arny. The Department of Defense, largely through the Office of 
the Secretary of Defense's (OSD's) Energy Security Task Force, the 
Army's Rapid Equipping Force and the Army Program Manager-Mobile 
Electric Power, is assessing a range of alternatives to reduce the 
operational energy demands of our deployed forces. A wide variety of 
technical and procedural solutions have been identified and are being 
fielded today. Initial efforts are focused on immediately executable, 
high return on investment and risk mitigation solutions. One of the 
most publicized solutions involves the introduction of spray foam-
insulated tents. This initiative is providing a high return on 
investment while reducing risk to supply convoys and the force 
protection demands they drive. The Joint Contracting Command in Iraq 
just recently awarded a $95 million competitive contract to insulate 9 
million additional square feet of tents. It is projected that this work 
will reduce fuel demand in theater by 77,000 gallons a day, which 
translates to roughly thirteen to fifteen tanker trucks taken off the 
roads a day. When including the resulting reduced demand for force 
protection for those tankers, this effort will provide a significant 
operational capability benefit to commanders. While this is a positive 
step, more technically complicated or location-specific efforts are 
also being considered, to include the use of heat exchangers, as 
requests are received from the field or as they mature through 
traditional acquisition programs. Research and fielding of foam 
insulation, tactical micro-grids and heat exchangers are in planning. 
The Army currently has a heat co-generation Program of Record 
requirement in their budget starting in FY 2012. [See page 24.]
    Mr. DiPetto. The Department of Defense, largely through the Office 
of the Secretary of Defense's (OSD's) Energy Security Task Force, the 
Army's Rapid Equipping Force and the Army Program Manager-Mobile 
Electric Power, is assessing a range of alternatives to reduce the 
operational energy demands of our deployed forces. A wide variety of 
technical and procedural solutions have been identified and are being 
fielded today. Initial efforts are focused on immediately executable, 
high return on investment and risk mitigation solutions. One of the 
most publicized solutions involves the introduction of spray foam-
insulated tents. This initiative is providing a high return on 
investment while reducing risk to supply convoys and the force 
protection demands they drive. The Joint Contracting Command in Iraq 
just recently awarded a $95 million competitive contract to insulate 9 
million additional square feet of tents. It is projected that this work 
will reduce fuel demand in theater by 77,000 gallons a day, which 
translates to roughly thirteen to fifteen tanker trucks taken off the 
roads a day. When including the resulting reduced demand for force 
protection for those tankers, this effort will provide a significant 
operational capability benefit to commanders. While this is a positive 
step, more technically complicated or location-specific efforts are 
also being considered, to include the use of heat exchangers, as 
requests are received from the field or as they mature through 
traditional acquisition programs. Research and fielding of foam 
insulation, tactical micro-grids and heat exchangers are in planning. 
The Army currently has a heat co-generation Program of Record 
requirement in their budget starting in FY 2012. [See page 25.]
    Mr. Arny. The decision whether nuclear power propulsion will be 
incorporated in future surface combatants will be based on a thorough 
examination. The analysis of alternatives (AoA) for the Maritime Air 
and Missile Defense of Joint Forces (MAMDJF) capability, which included 
an assessment of CG(X) alternatives, examined both fuel efficient 
conventional power plants and nuclear power alternatives. The MAMDJF 
AoA used a Fully-Burdened Cost of Fuel methodology in the analysis of 
alternative CG(X) power systems.
    Navy leadership is reviewing the AoA results. The Navy will select 
a Service preferred alternative for CG(X) and then provide a 
recommendation to the Office of Secretary of Defense at a Milestone A 
Defense Acquisition Board (DAB).
    The Navy's FY 2006 Report to Congress on Alternative Propulsion 
Methods for Surface Combatants and Amphibious Warfare Ships indicated 
an upfront nuclear acquisition cost premium of $600-$700 million, in FY 
2007 dollars, per ship for a medium surface combatant. This premium is 
over and above the acquisition cost of a fossil fueled ship. While the 
nuclear power variant includes a higher upfront acquisition cost than 
the fossil fuel variant, it should be offset over the life cycle by 
lower operations and support costs completely or to some degree 
depending on the ships' Operating Tempo, energy demands, and fuel 
prices. [See page 26.]
?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             March 13, 2008

=======================================================================

      
                    QUESTIONS SUBMITTED BY MR. ORTIZ

    Mr. Ortiz. What is your assessment of the military value of 
domestic coal-to-liquid fuel production facilities that are being 
considered for construction on military installations such as Malmstrom 
Air Force Base? Please compare the relative military utility of 
domestic fuel production facilities with that of energy production 
technologies that can be used by warfighters outside CONUS. Where 
should the Department of Defense focus its efforts and resources to 
develop operational energy technologies?
    General Carns. The Department has developed a draft Energy Security 
Strategic Plan which provides the framework for focusing energy efforts 
across DoD. There are numerous projects ongoing that support our energy 
posture for platforms, and fixed and tactical installations. We are 
focusing efforts on a broad set of solutions to meet operational needs 
of the warfighters.
    Within the draft Strategic Plan, Goal #2 is to ``Increase energy 
security through strategic resilience by increasing the availability 
and use of alternative or assured energy sources.'' The Department's 
work on synthetic fuels, as well as on other technological energy 
solutions, is grounded in this goal.
    DoD procures large volumes of military specification fuel for 
storage and distribution in support of the Department's mobility fuel 
requirements (i.e., ships and aircraft). Our goal is to be able to use 
fuel derived from any source or process with an emphasis on using 
assured sources where possible. Synthetic fuels, such as produced from 
coal to liquids, offer a promise of an assured fuel source, and we are 
focused on testing and certifying various fuels to ensure they can be 
used in our systems. Within the U.S., we are considering the use of 
domestically sourced synthetic fuel as an alternative to traditional 
petroleum, thereby reducing our dependence on non-assured sources of 
oil, with the desire of positively impacting the U.S. economy by 
initiating a domestic market for synthetic fuels and strengthening our 
energy security.
    The Air Force is allowing private companies to use underutilized 
land to build various energy facilities, for which the Air Force would 
receive compensation, called an Enhanced Use Lease. Malmstrom is one 
such facility that could help the Department reduce its dependence on 
non-assured sources of oil.
    Mr. Ortiz. What role does DoD play relative to the Department of 
Energy in the development to alternative energies? How is DOD 
positioned to participate in national-level energy discussions with the 
Department of Energy and other agency partners? What needs to be done 
to cultivate these relationships?
    Mr. DiPetto. The Department of Defense and the Department of Energy 
(DOE) collaborate on numerous interagency efforts. The most formally 
established are the Interagency Working Group on Alternative Fuels and 
the Unconventional Fuels Task Force, which examine the feasibility of 
using various disparate feedstocks to create fuel that is capable of 
being used in conventional engines. We also collaborate in the monthly 
Energy Conversation, which meets with the goal of focusing on how 
energy issues impact programs and increasing visibility across the DoD, 
DOE and other Federal agencies. An ``Energy Yellow Pages'' is being 
developed throughout approximately 27 federal entities, to include DoD 
and DOE, that will enable partnerships across programs. We also are 
identifying specific programs where we may collaborate, such as the 
National Energy Technology Lab's work in algae-based fuels.
    Mr. Ortiz. What process does each military service follow to 
determine its priorities for funding alternative energies?
    Mr. DiPetto. Each Military Department has established or is 
establishing organizational processes for integrating energy efforts 
and issues. The Army Energy Security Task Force (AESTF) was recently 
stood up to develop the necessary strategic/action plans to satisfy 
emerging issues identified in Defense Science Board and Government 
Accountability Office (GAO) reports, Executive Order 13423, and other 
associated drivers. Additionally, the AESTF was charged with the 
development of a governance framework for all Army energy security 
efforts. The Navy is setting up a Navy Energy Task Force to provide a 
comprehensive Navy energy governance structure. For several years, the 
Air Force has had a well-defined structure, led by the Assistant 
Secretary of the Air Force for Installations, Environment, and 
Logistics, with several technical panels underneath.
    The Army's energy strategy is to create a culture of energy 
accountability, reduce energy consumption, and increase efficiency to 
enhance operational capabilities, increase the use of new/alternative 
energy sources, establish benchmarks, and champion investment 
strategies.
    The Navy-Marine Corps investment strategy for alternative energy 
programs uses a number of criteria depending on the application and the 
maturity of the technology; however, the potential benefit versus cost 
criterion is always a factor. Investment criteria are tailored to 
assess the specific factors relevant to the evaluation and potential 
adoption or implementation of a specific technology. Technology 
investment criteria include factors such as the range of applicability 
(single versus multiple target application), operational need 
criticality (limited application range but critical to operational 
need), estimated cost of development, estimated non-recurring cost, and 
potential fossil fuel displacement.
    The Air Force strategy is to minimize the use of tax-payer dollars 
to develop alternative energies. As a consumer we are working with 
private, alternative energy companies to provide alternative energy for 
our consumption. Using this strategy, we were able to accomplish the 
Nellis AFB solar project and we are attempting to duplicate this model 
at other bases.
    Mr. Ortiz. The Department of Defense and the military services 
independently fund numerous research and development projects for 
energy storage technologies such as fuel cells and batteries. What 
steps are being taken by DOD to coordinate the energy storage 
technology requirements and efforts of the services and to streamline 
investments?
    Mr. DiPetto. The Director of Defense Research and Engineering 
(DDR&E) initiated the Energy and Power Technology Initiative (EPTI) in 
2002 as a Department-wide effort to explore and develop advanced 
capability-enabling power technologies. EPTI's mandate is to identify 
technical objectives, quantified technical barriers, and enabling 
technologies associated with development of advanced energy and power 
components and systems. There are five major focus areas: Power 
Generation, Electromechanical Conversion, Energy Storage, Thermal 
Transport and Control, and Power Control and Distribution. Each focus 
area has identified goals, objectives, challenges, approaches, and 
programs; and provides a macro view of priorities, descriptions of 
integrating demonstrations, and how they overlay onto specific 
component technologies.
    EPTI is also engaged with the Interagency Advanced Power Group, 
which is a federal organization that facilitates exchange of 
information in Advanced Power, with specific emphasis on high-energy 
batteries, fuel cells, and other portable and mobile power sources.
    Mr. Ortiz. What is your assessment of the military value of 
domestic coal-to-liquid fuel production facilities that are being 
considered for construction on military installations such as Malmstrom 
Air Force Base? Please compare the relative military utility of 
domestic fuel production facilities with that of energy production 
technologies that can be used by warfighters outside CONUS. Where 
should the Department of Defense focus its efforts and resources to 
develop operational energy technologies?
    Mr. DiPetto. The Department has developed a draft Energy Security 
Strategic Plan which provides the framework for focusing energy efforts 
across DoD. There are numerous projects ongoing that support our energy 
posture for platforms, and fixed and tactical installations. We are 
focusing efforts on a broad set of solutions to meet operational needs 
of the warfighters.
    Within the draft Strategic Plan, Goal #2 is to ``Increase energy 
security through strategic resilience by increasing the availability 
and use of alternative or assured energy sources.'' The Department's 
work on synthetic fuels, as well as on other technological energy 
solutions, is grounded in this goal.
    DoD procures large volumes of military specification fuel for 
storage and distribution in support of the Department's mobility fuel 
requirements (i.e., ships and aircraft). Our goal is to be able to use 
fuel derived from any source or process with an emphasis on using 
assured sources where possible. Synthetic fuels, such as produced from 
coal to liquids, offer a promise of an assured fuel source, and we are 
focused on testing and certifying various fuels to ensure they can be 
used in our systems. Within the U.S., we are considering the use of 
domestically sourced synthetic fuel as an alternative to traditional 
petroleum, thereby reducing our dependence on non-assured sources of 
oil, with the desire of positively impacting the U.S. economy by 
initiating a domestic market for synthetic fuels and strengthening our 
energy security.
    The Air Force is allowing private companies to use underutilized 
land to build various energy facilities, for which the Air Force would 
receive compensation, called an Enhanced Use Lease. Malmstrom is one 
such facility that could help the Department reduce its dependence on 
non-assured sources of oil.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MR. BARTLETT
    Mr. Bartlett. Do you agree with the DSB Task Force report's general 
finding, and specifically its classified appendix that lists critical 
missions performed at DoD installations and non-DoD facilities that are 
at risk of prolonged electricity outage due to the vulnerability of the 
national grid and inadequate on-site backup power? If so, please 
provide the HASC with an appropriately classified report or briefing 
with your plans or recommendations to ensure continuity of electricity 
for these missions.
    Mr. Arny. The Department is fully aware of the broad spectrum of 
vulnerabilities to the national power grid (and other U.S. 
infrastructure issues) that could impact DoD installations. DoD 
generally agrees with the findings of the Defense Science Board Task 
Force on Energy Security's Report. The Department, however, is not 
aware of an authoritative threat analysis or system assessment report 
describing the possibility of long-term power outages that could impact 
DoD installations and their missions.
    Critical missions at DoD installations generally have adequate 
back-up power generation, and, in some cases, have uninterruptible 
power supplies to ensure national security is sustained in the event of 
short-term outages. These systems are tested to ensure they can carry 
the requisite loads and are constantly re-fueled to sustain operations 
for power outages that could last hours/days/weeks in length.
    The potential hazards of a prolonged electricity outage necessitate 
a serious planning effort that continues to be developed, recognized, 
and exercised for preparedness in the Department of Energy, Department 
of Homeland Security, and DoD.
    Mr. Bartlett. Do you agree that requiring a plan to assess and 
prioritize critical missions at U.S. installations, incorporation of 
the concept or resilience in strategy and planning documents, 
identification of risk management options and identification of 
barriers outside the control of the department to implementing these 
options would reduce the risk from loss of power to within acceptable 
levels? If not, please provide the HASC recommendations for specific 
measures that would reduce the risk from loss of power to within 
acceptable levels?
    Mr. Arny. The Department agrees that a plan to identify missions, 
required capabilities, and critical assets is needed. We have worked 
diligently to establish a robust and disciplined approach to identify, 
prioritize, and assess the risk to those assets the Department deems 
critical to executing the National Defense Strategy. Such a plan would 
help the Department minimize the risk and manage consequences to within 
acceptable levels resulting from loss of power.
    The Department released the Strategy for Defense Critical 
Infrastructure (DCI), which articulates the approach required for 
ensuring the availability of assets deemed essential to the successful 
completion of DoD missions in an all-threat and all-hazard environment. 
This strategy recognizes that although safeguarding the reliability of 
the nation's critical infrastructure will require a national effort, 
executing the strategy will provide defense stakeholders with a better 
understanding of what DoD must do to ensure the availability and 
resiliency of DCI.
    Ownership of assets critical to the functioning of the DoD rests 
not only within the Department and other government agencies, but also 
throughout the private sector as well. The Department is cognizant of 
and accounts for the need to coordinate the assessment of risk and 
implementation of follow-on risk management activities with a myriad of 
organizations internal and external to the DoD, the Federal government, 
and private industry.
    The Department recognizes Departmental equities must be addressed 
across the interagency in order to execute the National Defense 
Strategy and will use the framework established by the Department of 
Homeland Security (DHS) under the National Infrastructure Protection 
Plan to coordinate cross-sector, interdepartmental, and public-private 
requirements.
    The Department also agrees that a detailed Energy strategy is 
needed, and efforts are underway to develop this strategy which we 
anticipate completion by the end of the year. Underpinning this 
strategy is the requirement and responsibility of the electric power 
industry to ensure resilient systems servicing critical loads, such as 
emergency services public sector as well as DoD installations 
supporting national security, are provided.
    The Department, working with the Department of Energy (DOE), 
Federal Energy Regulatory Commission (FERC), and DHS can also help the 
electric sector understand the threat as well as structure appropriate 
war games to assess consequences management. The Department is also 
working with the Idaho National Laboratories on specific protection 
techniques for certain cyberattack modes. Finally, the Department is 
committed to implementing Section 433 of the Energy Independence and 
Security Act of 2007, specifically to ensure new DoD facilities have a 
net zero energy impact on the national grid by 2030.
    Mr. Bartlett. Do you agree that biomass, waste-to-power, geothermal 
power generation systems, bio-based ground transportation fuels, and 
other potential sources, such as nuclear, ocean thermal energy 
conversion (OTEC) and space-based solar power should be included in an 
update of the department's 2004 renewable energy assessment?
    Mr. Arny. Providing an update to the renewable energy assessment is 
no small endeavor. There are currently many renewable resource 
assessment tools available to installations in planning for energy 
security. The National Renewable Energy Lab (NREL) provides maps and 
charts identifying renewable resources throughout the country. DoD 
believes these tools should be used as the starting point for 
developing additional renewable energy. NREL can also provide a 
detailed analysis of the most cost-effective mix of energy sources for 
a particular location. Assessing needs on an installation-by-
installation basis would be a more cost-effective method than a whole 
scale update of the previous study.
    Mr. Bartlett. To what extent can renewable resources be used to 
meet the demands of critical mission loads?
    Mr. Arny. When compared to the Nation-at-large, a considerable 
portion of the Department's energy needs are met by renewable energy 
resources. In Fiscal Year 2007, the Department produced or procured 
renewable energy equivalent to 11.9 percent of electrical consumption 
and that value will rise in the future. Considering the cost of 
redundant infrastructure for reliability, critical missions are 
sometimes not located in close proximity to life-cycle cost-effective 
renewable energy sources, thereby making it a challenge to focus 
renewable resources to meet the demands of critical mission loads. The 
Department is committed to providing the appropriate level of energy 
security for all missions, including critical missions, and will 
continue to evaluate renewable resource availability and economic 
feasibility to accomplish our missions.
    Mr. Bartlett. Do you agree with the DSB Task Force report's 
recommendations to ``island'' critical classified missions and 
installations from the grid when necessary?
    Mr. Arny. In general, I agree with the concept of having the 
ability to ``island'' critical infrastructure from the grid when 
necessary. This capability must be built over time and one step toward 
this capability is compliance with Section 433 of the Energy 
Independence and Security Act of 2007, which essentially requires Net 
Zero buildings for the future. The Department is also developing a Net 
Zero Energy Installation planning guide, which will help ensure entire 
installations, not just specific buildings, have ``islanding'' 
capabilities. Still, we must be careful in developing these plans to 
ensure that installations do not become islands unto themselves while 
surrounding communities suffer in darkness. We believe it is at least 
as important to solve vulnerability issues on the national level as it 
is to have ``islanding'' capabilities.
    Mr. Bartlett. Do you agree that a cross-agency and department and 
intergovernmental working group is necessary in order to ``island'' 
critical classified missions and installations from the grid when 
necessary? Would Presidential Leadership and authority be necessary to 
support implementation of islanding of critical classified missions and 
installation from the grid when necessary?
    Mr. Arny. HSPD-7 (Critical Infrastructure Identification, 
Prioritization and Protection) already directs the Department to work 
with other Federal departments and agencies to ``prevent, deter, and 
mitigate the effects of deliberate efforts to destroy, incapacitate, or 
exploit'' critical infrastructure and key resources. The National 
Infrastructure Protection Plan (2006) provides the framework for 
addressing the entire national effort to execute coherent 
identification, prioritization, and protection activities, across all 
critical sectors, levels of government, and among private and public 
entities.
    Additionally, a committee of the National Science and Technology 
Council recently recommended that a subcommittee be established to 
examine the Science & Technology issues/opportunities associated with 
this issue. DoD, along with the Department of Energy, Department of 
Homeland Security, Federal Energy Regulatory Commission, Environmental 
Protection Agency and other agencies will be engaged in this new 
effort.
    Internally, the Department is working to identify critical 
infrastructure and ensure a capability to sustain military missions, 
under the auspices of the Energy Security Task Force. Due to the 
intensity of ongoing efforts, we do not feel additional authority is 
necessary to accomplish the Department's goals.
    Mr. Bartlett. Would the inclusion of energy demand, energy 
logistics, energy protection requirements, and endurance of combat 
forces into any models, simulations, and wargames and all other 
analytical tools be used by the department improve the ability of the 
department to calculate the fully burdened cost of fuel?
    Mr. DiPetto. The purpose of the ``fully burdened cost of fuel'' is 
to include a quantitative, financial value within the acquisition 
tradespace to represent the logistics and force protection effort it 
will take to ensure delivery of the needed volume of fuel to an 
operational system. To develop a defendable number that will aid 
decision-making between cost, schedule and performance trades, the 
Department must consider all of those fuel delivery forces, and their 
protection, employed within a given set of operational and non-
operational (e.g. training) scenarios. This is a natural extension of 
the DoD scenario-based force planning and requirements generation 
processes.
    Hence, to do this work, a variety of fuel-related factors need to 
be actively played in models, simulations, wargames and in the Defense 
Planning Scenarios. The findings from these activities must then be 
carried into the requirements development process, similar to variables 
concerning lethality, survivability and maintainability, among others. 
The weighting of these capability variables against each other, to 
include energy demand, will be reflected in the Joint Requirements 
Oversight Council (JROC)-validated capability direction for the force, 
and potentially, the Key Performance Parameters chosen to guide the 
development of individual systems and acquisition platforms.
    The Department has begun to play these energy delivery risk 
variables in a major Air Force wargame and in several Defense Planning 
Scenario-related sessions (with interagency involvement). This 
preliminary work is focused on building an appreciation of fuel as an 
operational risk factor. Along with other guidance, this will lead to 
the modification of key models, and to the analysis they support, to 
treat fuel-related risks much like other capability variables.
    The Office of the Under Secretary of Defense (Acquisition, 
Technology and Logistics) is leading the development of a DoD Energy 
Security Strategic Plan, as well as changes to key Directives and 
guidance documents, to ensure these variables are considered 
appropriately when designing and developing our future forces. This 
work will directly inform how the ``fully burdened cost of fuel'' is 
determined and applied for each acquisition system.
    Mr. Bartlett. Has the integration of energy demand, energy 
logistics, energy protection requirements, and endurance of combat 
forces into any models, simulations, wargames, and any other analytical 
tools be used by the department been mandated under the April 2007 
USD(AT&L) memorandum requiring the inclusion of the fully burdened cost 
of fuel for all acquisition trade analyses?
    Mr. DiPetto. As directed in the April 2007 memorandum from the 
Under Secretary of Defense (Acquisition, Technology and Logistics), the 
Department reviewed three acquisition programs to understand how fuel 
risk variables were considered in their cost, schedule and performance 
tradespace. The lessons learned here, along with the assessment of the 
Defense Science Board Task Force on Energy Security in 2008, are being 
used to write guidance for the acquisition community on how and when to 
consider the fully burdened cost of fuel (FBCF) in the course of a 
Major Defense Acquisition Program. Both DoD Directive 5000.02 and the 
Defense Acquisition Guidebook are being revised this year to 
incorporate these guidance changes.
    The integration of the energy variables will be addressed in the 
DoD Energy Security Strategic Plan. The Strategic Plan is currently in 
review by DoD senior leadership. Therefore, it is premature to comment.
    Mr. Bartlett. Has the fully burdened cost of fuel been included as 
a factor in any models and simulations used in DoD's Analytical 
Baseline and vignettes used as the basis for Analyses of Alternatives 
(AoA) and Evaluation of Alternatives studies since the issuance of the 
April 2007 USD (AT&) memorandum requiring the inclusion of the fully 
burdened cost of fuel acquisition trade analyses?
    Mr. DiPetto. The Fully Burdened Cost of Fuel (FBCF) is a newly 
devised factor for inclusion in DoD life-cycle cost estimating, 
specifically for use in deciding between alternative designs and 
technologies in the acquisition and science & technology investment 
areas. Because FBCF is only an estimation of financial cost, it does 
not inform DoD processes that evaluate capabilities gaps, such as the 
modeling, simulations, wargames, and scenario-based planning that go on 
in the DoD Joint Strategic Planning Process (which includes the Defense 
Planning Scenarios and the Analytic Agenda).
    Rather, FBCF is informed by the scenario-based force planning 
analysis work. This analysis helps determine how much fuel is required 
as well as the types and scale of fuel logistics forces that are 
required, to execute notional future operations. The predicted costs of 
the fuel and fuel logistics forces are then added up and are attributed 
proportionally to the alternative platform designs to generate the 
FBCF.
    Analyses of Alternatives or Evaluations of Alternatives (AoA/EoA) 
are performed at the juncture of the DoD requirements process, Joint 
Capabilities Integration and Development System (JCIDS), and the 
acquisition process to help determine how the Department will fill an 
identified future capability gap with a materiel (equipment) solution. 
The AoA/EoA is unique because it is the only point in the decision 
process where both the capability of the alternative systems and their 
respective costs are explicitly varied and compared as core decision 
factors.
    To date, no AoA/EoA has included a calculation of the Fully 
Burdened Cost of Fuel. This is because the Department is still working 
on an agreed methodology for how such cost estimates are to be 
developed. The Office of Under Secretary of Defense (AT&L) is 
collaborating with a variety of DoD organizations to develop this base 
methodology and the rules for how the Components must apply it. Great 
care is being taken to ensure the first application of the approach is 
methodologically sound, and that fuel-related variables carry an 
appropriate, not disproportionate, weight in the tradespace related to 
capability and affordability.
    Mr. Bartlett. Will the department please provide the HASC 
information about any analyses and the outcome of those analyses that 
have incorporated the fully burdened cost of fuel?
    Mr. DiPetto. In April 2007, the Under Secretary of Defense 
(Acquisition, Technology and Logistics) issued a policy memo directing 
the use of the fully burdened cost of fuel (FBCF) concept in the DoD 
acquisition process. To implement the FBCF, the AT&L policy memo called 
for the initiation of a pilot program to develop the best business 
practices to incorporate FBCF into DoD Acquisition. To date, the pilot 
program is nearing conclusion and lessons learned are only now being 
formally incorporated into DoD Acquisition instructions and guidance. 
Consequently, as analyses are completed in response to formal 
instruction and guidance requirements, the Department will provide the 
House Armed Services Committee information as requested.
    Mr. Bartlett. Would the inclusion of an energy efficiency Key 
Performance Parameter (KPP) as required by the Chairman of the Joint 
Chiefs of Staff Instruction CJCSI3170F dated may 2007 improve the 
department's ability to manage energy use and costs in acquisition 
trade analyses?
    Mr. DiPetto. CJCSI 3170.01F outlines the policies and procedures of 
the DoD Joint Capabilities Integration and Development System (JCIDS), 
which is the Departments process to validate and prioritize war 
fighting requirements. Within JCIDS, KPPs serve to define those system 
attributes or characteristics that are deemed critical to fill an 
identified capability gap with a materiel (equipment) solution.
    Inclusion of an energy efficiency KPP could improve the Departments 
ability to manage energy and fuel-related costs, if it is underpinned 
by a flexible analytical methodology that can be applied to the full 
range of air, ground and maritime environments. However, the analytical 
tools and supporting methodology to make comparisons and to set targets 
and minimum thresholds have yet to be developed. Some of this 
methodological work has been initiated by the acquisition community for 
the purpose of calculating the Fully Burdened Cost of Fuel. Once the 
methodology is agreed to, and the modeling tools are developed and 
applied by the force planning community, the KPP would inform the 
acquirers of how the fuel demand of the system and the size of the fuel 
delivery force structure it will require should be addressed against 
other performance and cost factors.
    Mr. Bartlett. What other measures would improve the department's 
ability to manage energy use and costs?
    Mr. DiPetto. The Department is finalizing an over-arching Energy 
Security Strategic Plan that will provide a framework for understanding 
and addressing energy challenges at all levels and activities across 
the Department. The strategic plan identifies four goals and prescribes 
actionable tasks for the Department to pursue in addressing these 
challenges, thereby enhancing our energy security posture. The 
strategic goals are:

        1.  Maintain or enhance operational effectiveness while 
        reducing total force energy demands - REDUCE DEMAND

        2.  Increase energy security through strategic resilience (e.g. 
        alternatives/renewables and reducing dependence on non-assured 
        sources) - ASSURE SUPPLY

        3.  Enhance operational and business effectiveness by 
        institutionalizing energy solutions in DoD planning and 
        business processes - IMPROVE PROCESSES

        4.  Establish and monitor Department-wide metrics - IMPROVE 
        PROCESSES

    The strategic plan is currently in coordination within the 
Department with an anticipated release later this year.
    We have also initiated several demonstrations and other projects to 
reduce energy consumption and increase alternatives for installations, 
both fixed and tactical, and platforms, with anticipated savings 
ranging from 5% to 25%. Together, these efforts will reduce costs and 
enable sustained, uninterrupted operations for the Department. Efforts 
at tactical installations will have the additional effect of reducing 
fuel convoys, thereby putting fewer soldiers, sailors, airmen and 
marines in harms way.
    Mr. Bartlett. Would mandating the inclusion of energy demand, 
energy logistics, energy protection requirements, and endurance of 
combat forces into any models, simulations, wargames, and tactical 
exercises or other planning tools used by the department and the 
services provide more accurate calculations of the fully burdened cost 
of fuel (FBCF)? If not, what measures would improve the accuracy of 
calculations of the fully burdened cost of fuel?
    General Carns. Yes, the inclusion of energy demand, energy 
logistics, energy protection requirements, and endurance of combat 
forces models, simulations, wargames, and tactical exercises or other 
planning tools used by the department and the services would allow for 
a more accurate calculation of the fully burdened cost of fuel (FBCF). 
Accordingly, the Task Force recommended that DoD accelerate the 
following three tasks:

        1.  Build fuel logistics into campaign analyses and other 
        analytical models and simulations to inform the requirements 
        process of the operational, force structure and cost 
        consequences of varying battlespace fuel demand;

        2.  Establish outcome-based energy Key Performance Parameters 
        (KPPs); and

        3.  Use FBCF as a factor in all Analyses of Alternatives/
        Evaluation of Alternatives (EoAs) and throughout all 
        acquisition trades.\1\
---------------------------------------------------------------------------
    \1\ http://www.acq.osd.mil/dsb/reports/2008-02-ESTF.pdf; Page 5

    DSB Energy Strategy Task Force found that current modeling and 
simulation conducted during Joint Capability Integration and 
Development System (JCIDS) and the Service pre-JCIDS planning functions 
lack the capability to quantify the contribution of system efficiency 
to battlespace outcome or force structure requirements. Force-on-force 
models and simulations used to explore new concepts and test new 
systems do not explicitly include logistics; this is a serious 
shortcoming. The Task Force recognizes that the models make simplifying 
assumptions for the sake of looking at battlefield effects and outcomes 
under certain constraints and limitations, but it strongly recommends 
that analysts not turn a blind eye to the need to account for logistics 
in the capability documents. Lessons learned and military judgment 
sometimes get applied as sanity checks and programmatic goals, but in 
the absence of explicit modeling it becomes easy to minimize what is 
inherently inconvenient. Such explicit modeling of logistics assets 
would better reflect reality, and would have significant impacts on 
concepts and the way required capabilities are developed.
    If the requirements process does not understand energy efficiency 
in terms it values--operational capability, combat vulnerability, and 
force structure balance--it will have no reason for making efficiency a 
requirement. If the acquisition process does not understand the total 
ownership cost of buying, moving and protecting fuel to systems in 
combat (fully burdened cost of fuel), then its business case analyses 
will use only the commodity price for fuel. This distorts the results 
to make high return investments in efficiency look much worse than they 
really are.\2\
---------------------------------------------------------------------------
    \2\ http://www.acq.osd.mil/dsb/reports/2008-02-ESTP.pdf; Pages 26-
27
---------------------------------------------------------------------------
    Mr. Bartlett. Would mandating the inclusion of energy demand, 
energy logistics, energy protection requirements, and endurance of 
combat forces into any models, simulations, wargames, and tactical 
exercises or other planning tools used by the department and the 
services provide more accurate calculations of the fully burdened cost 
of fuel (FBCF)? If not, what measures would improve the accuracy of 
calculations of the fully burdened cost of fuel?
    General Carns. Yes, the inclusion of energy demand, energy 
logistics, energy protection requirements, and endurance of combat 
forces models, simulations, wargames, and tactical exercises or other 
planning tools used by the department and the services would allow for 
a more accurate calculation of the fully burdened cost of fuel (FBCF). 
Accordingly, the Task Force recommended that DoD accelerate the 
following three tasks:

        1.  Build fuel logistics into campaign analyses and other 
        analytical models and simulations to inform the requirements 
        process of the operational, force structure and cost 
        consequences of varying battlespace fuel demand;

        2.  Establish outcome-based energy Key Performance Parameters 
        (KPPs); and

        3.  Use FBCF as a factor in all Analyses of Alternatives/
        Evaluation of Alternatives (EoAs) and throughout all 
        acquisition trades.\3\
---------------------------------------------------------------------------
    \3\ http://www.acq.osd.mil/dsb/reports/2008-02-ESTF.pdf; Page 5

    DSB Energy Strategy Task Force found that current modeling and 
simulation conducted during Joint Capability Integration and 
Development System (JCIDS) and the Service pre-JCIDS planning functions 
lack the capability to quantify the contribution of system efficiency 
to battlespace outcome or force structure requirements. Force-on-force 
models and simulations used to explore new concepts and test new 
systems do not explicitly include logistics; this is a serious 
shortcoming. The Task Force recognizes that the models make simplifying 
assumptions for the sake of looking at battlefield effects and outcomes 
under certain constraints and limitations, but it strongly recommends 
that analysts not turn a blind eye to the need to account for logistics 
in the capability documents. Lessons learned and military judgment 
sometimes get applied as sanity checks and programmatic goals, but in 
the absence of explicit modeling it becomes easy to minimize what is 
inherently inconvenient. Such explicit modeling of logistics assets 
would better reflect reality, and would have significant impacts on 
concepts and the way required capabilities are developed.
    If the requirements process does not understand energy efficiency 
in terms it values--operational capability, combat vulnerability, and 
force structure balance--it will have no reason for making efficiency a 
requirement. If the acquisition process does not understand the total 
ownership cost of buying, moving and protecting fuel to systems in 
combat (fully burdened cost of fuel), then its business case analyses 
will use only the commodity price for fuel. This distorts the results 
to make high return investments in efficiency look much worse than they 
really are.\4\
---------------------------------------------------------------------------
    \4\ http://www.acq.osd.mil/dsb/reports/2008-02-ESTF.pdf; Pages 26-
27
---------------------------------------------------------------------------
    Mr. Bartlett. Do you agree that a cross-agency and department and 
intergovernmental working group will be necessary in order to implement 
``islanding'' of critical classified missions and installations from 
the grid when necessary? Furthermore, would Presidential leadership and 
authority be necessary to support implementation of islanding of 
critical classified missions and installations from the grid when 
necessary?
    General Carns. Yes, DSB Energy Strategy Task Force recommends that 
DoD collaborate closely in these endeavors with other agencies, 
especially the Department of Energy (DoE) and its national 
laboratories, whose mission is energy research and technology 
deployment. DoE national laboratories have historical energy advisory 
relationships with the Services that can accelerate results. Completely 
isolating all installations from the grid is not practical, and 
islanding with distributed generation of local electricity sources can 
mitigate the risks.
    DoDI 1470.11 Sec. 5.2.3 states it is DoD policy to use onsite, 
self-contained power for critical functions, DoD-facilities-based 
microgrids, and netted area microgrids for extended strategic 
islanding, coupled with end-use energy efficiency measures. The 
Renewable Electricity Purchasing and On-Base Development Plan developed 
in 2004 by the Renewables Assessment Working Group was designed to 
quickly improve energy reliability and security at installations by 
working in deregulated states where no utility cooperation is required 
to make them less vulnerable through islanding, as recommended by the 
National Research Council. Thus, policy and plans are in place to move 
towards islanding for critical mission purposes. However, the Task 
Force could find no evidence that DoD has taken tangible steps to 
implement this policy or plans beyond a very small number of high 
profile projects. This is so, even though renewable energy sources such 
as solar, wind and geothermal are often economically advantageous and 
resilient, reducing the risk of mission interruption. Buying renewable 
energy credits, while an admirable step toward reducing carbon 
footprint, accomplishes nothing toward mitigating risks from power loss 
to critical missions.
    At specific locations where remedies within DoD's ability to 
implement are not technically or economically feasible, it may be 
necessary to engage local utility companies, regulatory agencies, and 
possibly State governments or the Congress to improve the reliability 
of the grid. In principal this might be done through regulatory or 
legislative action. However, it would require building redundancy at 
key nodes, redundant substations or buying spare equipment. Where DoD 
is the sole requesting party, it will probably have to fund these 
improvements.
    ``Decoupling'' is a recent regulatory trend enacted in a number of 
states that has the potential to reduce stress on the grid. 
Historically, utility regulators have set electric and gas rates based 
on projected sales volume. Since this also sets a utility's revenues, 
it is a disincentive for them to promote efficiency or to make it easy 
for customers to install on-site generation. ``Decoupling'' breaks the 
linkage between the amount of electricity or gas a utility sells and 
its ability to generate profits. This approach has the potential to 
enable utilities to remain profitable while investing in improved 
efficiency and reliability. Some states let utilities keep a small part 
of what they save for their customers as extra profit. This fully 
aligns utilities with customers' incentives and can strongly motivate 
utilities to help customers use electricity more efficiently. DoD may 
wish to include supporting such legislation as a possible approach to 
reducing risk at high-risk locations.\5\
---------------------------------------------------------------------------
    \5\ http://www.acq.osd.mil/dsb/reports/2008-02-ESTF.pdf; Pages 59-
60
---------------------------------------------------------------------------
    Mr. Bartlett. Please make specific recommendations to HASC 
concerning changes in the organization and composition of personnel 
within the services and the department that would improve the 
management of energy demand by operational forces.
    General Carns. Defense Science Board (DSB) Task Force on DoD Energy 
Strategy \6\ recommended that DoD establish a Department-wide strategic 
plan that establishes measurable goals, achieves the business process 
changes recommended by the 2001 DSB report \7\ and establishes clear 
responsibility and accountability. Currently, energy demand is an 
unplanned consequence of poorly informed decisions. Analytical tools 
are needed to develop meaningful and achievable energy goals, and 
business process changes are needed to enable new information to be 
considered when making key decisions that affect energy use. Success 
will require a plan that is horizontally and vertically integrated 
throughout the Department, with participation by all functional areas 
that make decisions affecting energy use with sustained oversight at 
the Deputy Secretary of Defense level.
---------------------------------------------------------------------------
    \6\ http://www.acq.osd.mil/dsb/reports/2008-02-ESTF.pdf
    \7\ http://www.acq.osd.mil/dsb/reports/fuel.pdf
---------------------------------------------------------------------------
    Specifically, the Task Force recommended:

        1.  By June 2008, establish a senior energy official 
        responsible for development of policies and procedures and 
        oversight of their implementation. This official should have a 
        voice at the key decision bodies throughout the requirements, 
        acquisition, and funding processes to ensure energy 
        considerations have been accurately factored into key decisions 
        that affect DoD's energy demand patterns and risks from 
        disruptions in commercial energy supplies.

        2.  By June 2008, USD(P) incorporate the concepts of resilience 
        and endurance of combat forces as tactically and strategically 
        important metrics to be included in future strategy and 
        planning documents. While the names of these documents change 
        frequently (e.g., Quadrennial Defense Review, National Military 
        Strategy, Strategic Planning Guidance (being renamed Guidance 
        for Development of the Force/Guidance for Employment of the 
        Force)), these concepts should guide the formulation of 
        Department goals and strategy for managing energy.

        3.  By July 2008, USD(AT&L) direct the establishment of 
        partnerships with the Director, Defense Research and 
        Engineering (DDR&E) and Department of Energy office of Energy 
        Efficiency and Renewable Energy (DoE/EERE) to identify 
        technologies with the potential to contribute to endurance 
        metrics by reducing battlespace fuel demand by deployed forces 
        and at forward operating bases.

        4.  By October 2008, develop and implement a Department-wide 
        plan to integrate energy into appropriate education and 
        training programs, to include professional military education, 
        to include Senior Service Schools, Capstone and Apex; and 
        specialty-specific education, such as acquisition corps and 
        engineering. Curricula should include risk to mission, cost and 
        force structure aspects of energy as addressed in this report 
        and appropriate to the course.\8\
---------------------------------------------------------------------------
    \8\ 2008 DSB Energy Strategy Task Force Report, Recommendation 3, 
pages 68-69
---------------------------------------------------------------------------

                                  <all>

</pre></body></html>
